 Semiannual Report to Congress
  Office of Inspector General for the U.S. Department of Labor




Volume 68                                  April 1– September 30, 2012
   A Message from the Deputy Inspector General
I am pleased to submit this Semiannual Report to Congress, which highlights the most significant activities and accomplishments
of the U.S. Department of Labor (DOL), Office of Inspector General (OIG) for the six-month period ending September 30, 2012. Our
audits and investigations continue to assess the effectiveness, efficiency, economy, and integrity of DOL’s programs and operations.
We also continue to investigate the influence of labor racketeering and/or organized crime with respect to internal union affairs,
employee benefit plans, and labor-management relations.


During this reporting period, we issued 41 audit and other reports that, among other things, recommended that $297 million in
funds be put to better use. Among our many significant findings, we reported that:
 • The use of limited-scope audits by independent public accountants that are authorized under the Employee Retirement Income
   Security Act (ERISA) allowed $3.3 trillion in assets to be excluded from audit review.
 • Management of the H-2B visa program needed to be strengthened to ensure adequate wage and job protections for U.S. workers.
 • Oversight of Job Corps centers’ performance needed to be improved to ensure that centers meet performance goals relating
   to academic and career technical training programs.
 • OSHA site specific inspection targeting program covered only a small portion of high-risk worksites nationwide.
 • Bureau of Labor Statistics’ requirements designed to protect confidential economic data and statistics from being disclosed
   prematurely or used in an unauthorized manner were violated in North Carolina, Wisconsin, Washington, and Louisiana.
 • Corrective actions taken as a result of the Mine Safety and Health Administration’s accountability reviews did not always
   prevent the recurrence of deficiencies, such as the failure to conduct safety and health inspections for all working shifts at
   metal/nonmetal mines.


Our investigative work also yielded impressive results, with a total of 357 indictments, 230 convictions, and $141.5 million in
monetary accomplishments. Some of our investigative results included:
 • The sentencing of the former benefit fund administrator for the New York Laborers’ International Union of North America
   (Sandhogs’ Union) Local 147 to six years in prison and three years of supervised release for her role in embezzling more than
   $40 million from employee benefit plans.
 • The sentencing of a former county commissioner in Ohio to 28 years in prison for his role in multiple crimes including racketeering,
   bribery, and conspiracy.
 • The sentencing of the former president of the United Food and Commercial Workers (UFCW) Northeastern District Council
   in Pennsylvania to 18 months in prison and to pay more than $257,000 in restitution for embezzling from labor union assets
   and from a health care benefit program.
 • The sentencing of an individual in Florida to more than two years in prison and ordered to pay nearly $2 million in restitution
   for her role in an illicit nationwide employee leasing scheme.
 • The guilty plea of a New York construction company owner, who agreed to repay more than $1.3 million in prevailing wages
   owed to his workers.


These examples clearly demonstrate the exceptional work done by our professional and dedicated OIG staff. I would like to express
my gratitude to them for their significant achievements during this reporting period. I look forward to continuing to work with the
Department to ensure the integrity of programs and the protection of the rights and benefits of workers and retirees.



                                                                                                                     Daniel R. Petrole
                                                                                                           Deputy Inspector General
           Selected Statistics .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
           Significant Concerns .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

           Employment and Training Programs
           Foreign Labor Certification Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

Contents   Workforce Investment Act. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
           Job Corps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
           Bureau of Labor Statistics. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

           Worker Safety, Health, and Workplace Rights
           Mine Safety and Health Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
           Occupational Safety and Health Administration. . . . . . . . . . . . . . . . . . . . . 20
           Wage and Hour Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

           Worker and Retiree Benefit Programs
           Office of Workers’ Compensation Programs. . . . . . . . . . . . . . . . . . . . . . . . 26
           Unemployment Insurance Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
           Employee Benefit Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
           Office of Labor-Management Standards. . . . . . . . . . . . . . . . . . . . . . . . . . . 36
           Disadvantaged Business Enterprises. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

           Labor Racketeering
           Benefit Plan Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
           Internal Union Corruption Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . 43
           Labor-Management Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

           Departmental Management.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48
           Single Audits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
           Employee Integrity Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

           Legislative Recommendations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52
           Appendices. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57

                                                                                  Semiannual Report to Congress: April 1– September 30, 2012
                                                Selected Statistics
               Investigative recoveries, cost-efficiencies, restitutions,
               fines and penalties, forfeitures, and civil monetary action................. $141.5 million

               Investigative cases opened................................................................................... 253

               Investigative cases closed..................................................................................... 223

               Investigative cases referred for prosecution........................................................ 261

               Investigative cases referred for administrative/civil action.................................. 101

               Indictments.......................................................................................................... 357

               Convictions........................................................................................................... 230

               Debarments............................................................................................................ 48




               Audit and other reports issued.............................................................................. 41

               Funds recommended for better use....................................................... $297 million

               Outstanding questioned costs resolved during this period..................... $6.9 million	
                  Allowed1............................................................................................ $1.8 million
                  Disallowed2........................................................................................ $5.1 million




          1      Allowed means a questioned cost that DOL has not sustained.
          2	     Disallowed means a questioned cost that DOL has sustained or has agreed should not be charged to the government.




2   Semiannual Report to Congress: April 1– September 30, 2012
                                      Significant Concerns
     The OIG works with the Department and Congress to provide information and recommendations that will be useful
   in their management or oversight of the Department. The OIG has identified areas that we consider particularly
   vulnerable to mismanagement, error, fraud, waste, or abuse. These issues form the basis of our annual Top Management
   Challenges report required under the Reports Consolidation Act of 2000. The Top Management Challenges report can
   be found in its entirety in the Appendix of this report.



Protecting the Safety and Health of                              faces challenges in establishing a successful accountability
Workers                                                          program, and to some degree, deficiencies continue to
                                                                 recur. In addition, as scientific knowledge and mining
The OIG remains concerned with the effectiveness of              practices change, MSHA must promote the development
Departmental programs in protecting the safety and health        and use of new technologies and ensure that its standards
of our nation’s workers. Specifically, audit findings continue   and regulations keep pace.
to raise concerns with the ability of the Occupational
Health and Safety Administration (OSHA) to best target           Improving Performance Accountability of
its resources to the highest-risk worksites nationwide and       Workforce Investment Act Grants
to measure the impact of its policies and programs —
and those of the 27 states authorized by OSHA to operate         Another area of concern for the OIG is the Department’s
their own safety and health programs. OSHA carries out           ability to ensure that the Workforce Investment Act
its enforcement responsibilities through a combination of        (WIA) grant programs are successful in training and
self‐initiated and complaint investigations, but can reach       placing workers in suitable employment to reduce
only a fraction of the entities it regulates. Consequently,      chronic unemployment, underemployment, and reliance
OSHA must strive to target the most egregious and                on social payments by the population it serves. Our
persistent violators and protect the most vulnerable             audit work over several decades has documented the
worker populations.                                              difficulties encountered by the Department in obtaining
                                                                 quality employment and training providers; ensuring
Protecting the Safety and Health of Miners                       that performance expectations are clear to grantees
                                                                 and sub-grantees; obtaining accurate and reliable data
Similarly, the OIG is concerned with the ability of the Mine     by which to measure and assess the success of grantees
Safety and Health Administration (MSHA) to effectively           and states in meeting the program’s goals; providing
manage its resources to meet statutory mine inspection           active oversight of the grant making and grant execution
requirements while successfully accomplishing other              process; disseminating proven strategies and programs
essential functions to help ensure that every miner returns      for replication; and, most critically, ensuring that training
home safely at the end of each day. Our audits have shown        provided by grantees leads to placement in related jobs
that MSHA remains challenged to maintain a cadre of              paying a living wage.
experienced and properly trained enforcement staff to
meet its statutory enforcement obligations. MSHA also

                                                                  Semiannual Report to Congress: April 1– September 30, 2012   3
                                                   Significant Concerns

Ensuring the Effectiveness of the Job                                were not readily available to allow the Department to
Corps Program                                                        directly sample grant payments to develop a statistically
                                                                     valid estimate of improper payments.
The Job Corps program’s administrative policies and its
ability to manage contracts and subcontracts is also a               Maintaining the Integrity of Foreign Labor
concern for the OIG. The Department is challenged to                 Certification Programs
provide a safe, residential and nonresidential education
and training program which results in outcomes that                  Another area of concern is the Department’s ability to
truly assist at-risk, disadvantaged youth (ages 16-24) in            provide U.S. businesses access to foreign workers to meet
turning their lives around, including: placement in training-        their workforce needs while protecting the jobs and wages
related employment, entrance into advanced vocational/               of U.S. workers. Our audits have found that statutory limits
apprenticeship training, entrance into higher education,             on the Department’s authority, and uncertainty regarding
or enlistment in the military. Our audits have consistently          the process for including individuals or entities debarred
documented the Department’s difficulty in ensuring the               on the government-wide excluded parties lists are some
quality of residential life, a critical component of the Job         of the issues that have negatively impacted the H-1B
Corps’ intensive intervention experience. Our audits have            program. For the H‐2B program, we have found that DOL
also demonstrated the challenge faced by the Department              regulations have hampered the Department’s ability to
in obtaining and documenting desired program outcomes.               provide adequate protections for U.S. workers because
                                                                     the system is based on a model where employers merely
Reducing Improper Payments                                           assert, but do not demonstrate, that they have performed
                                                                     an adequate test of the U.S. labor market before hiring
The Department’s ability to identify and reduce the rate             foreign workers. The Department published a new
of improper payments in the Unemployment Insurance                   rule that addresses the concern by requiring review of
(UI), FECA and WIA programs is a continuing concern for              employers’ documentation before it issues certification
the OIG. In the UI program, our audits have found that the           determinations; however, due to pending legal actions,
Department lacked effective controls over the detection              the Department continues to operate under the old
of improper payments, and that the Department’s                      regulations. OIG investigations also continue to uncover
estimate of recoverable payments may be understated.                 complex schemes involving fraudulent DOL FLC documents
In addition, OIG investigations continue to uncover fraud            filed in conjunction with or in support of similarly falsified
committed by individual UI recipients who do not report or           identification documents required by other Federal and
underreport earnings, as well as fraud related to fictitious         state organizations.
employer schemes. Similarly, we remain concerned with
the Department’s ability to identify the full extent of
improper payments in the WIA and FECA programs. As
highlighted in past OIG audits, the estimation method
used for the FECA program does not appear to provide a
reasonable estimate of improper payments. In addition,
OIG investigations continue to identify high amounts of
FECA compensation and medical fraud, which has often
greatly surpassed the Department’s improper payments
estimates. For the WIA program, we have noted that data

4       Semiannual Report to Congress: April 1– September 30, 2012
                                              Significant Concerns

Ensuring the Security of Employee Benefit                      systems and protecting sensitive information, has added
Plan Assets                                                    to the challenge. Recent OIG audits have identified access
                                                               controls, background investigations, and oversight of third
The Employee Benefits Security Administration’s (EBSA)         parties involved in the operation and support of IT systems
limited authority and resources present challenges to          as significant deficiencies. In addition, we have identified
achieving its mission of administering and enforcing           major weaknesses in the process of sanitizing electronic
ERISA requirements for an estimated 5.3 million employee       media prior to it being removed from DOL’s control and
benefit plans covering approximately 141 million               destroyed.
participants and beneficiaries. Chief among our concerns
over the past couple of decades has been the fact that         Ensuring the Effectiveness of Veterans’
millions in pension assets held in otherwise regulated         Employment and Training Programs
entities, such as banks, escape audit scrutiny because of
limited scope audits authorized under ERISA, which result      Providing meaningful employment and training services
in no opinion on the financial status of the plan by the       to military veterans and members transitioning to civilian
independent public accountants that conduct the limited        employment remains a challenge for the Department.
review. These concerns were renewed and heightened             Our audits have found that the Department needs to do a
by recent audit findings that as much as $3.3 trillion in      better job of accurately assessing the veterans’ needs and
pension assets received these types of no opinion audits,      documenting intensive service activities — particularly for
providing no assurances to participants as to the financial    homeless veterans with disabilities. We have also found
health of their plans.                                         that Veterans’ Employment and Training Service (VETS)
                                                               did not use measurable performance goals and outcomes
EBSA is further challenged by the many changes that have       to evaluate program effectiveness and lacked adequate
taken place in the employee benefit plan community             contracting oversight for Transition Assistance Program
since ERISA was enacted in 1974, such as the shift from        (TAP) workshop services. These deficiencies undermined
defined benefit retirement plans to defined contribution       VETS’s ability to ensure that it was providing a high-quality
retirement plans; the large increase in the types and          program that helps veterans successfully transition from
complexity of investment products available to pension         military to civilian employment.
plans; and the new health care law. In addition, uncertainty
about the effectiveness of EBSA enforcement programs           Improving Procurement Integrity
on ERISA compliance makes it difficult for EBSA to direct
its limited resources effectively among its regional offices   Ensuring the integrity of the Department’s procurement
to the enforcement areas where they would do the most          activities is also of concern for the OIG. Until procurement
good.                                                          and programmatic responsibilities are properly separated
                                                               and effective controls are put into place, DOL will continue
Securing Information Technology Systems                        to be at risk for wasteful and abusive procurement
and Protecting Related Information Assets                      practices. Our most recent audits and investigations
                                                               of DOL’s procurement activities identified the need for
Safeguarding information assets is a continuing concern for    better control and monitoring of procurement activities
Federal agencies, including DOL. The Administration’s goal     delegated to program agencies.
of expanding the use of technology to create and maintain
an open and transparent government, while safeguarding

                                                                Semiannual Report to Congress: April 1– September 30, 2012   5
Employment and Training
      Programs




              Semiannual Report to Congress, Volume 62
                                    Employment and Training Programs


                 Foreign Labor Certification Programs
      The Employment and Training Administration (ETA) administers a number of foreign labor certification (FLC)
    programs that allow U.S. employers to employ foreign workers to meet American worker shortages. The H-1B visa
    specialty workers’ program requires employers that intend to employ foreign specialty-occupation workers on a
    temporary basis to file labor condition applications with ETA stating that appropriate wage rates will be paid and
    that workplace guidelines will be followed. The H-2B program establishes a means for U.S. nonagricultural employers
    to bring foreign workers into the United States to meet temporary worker shortages. The Permanent Foreign Labor
    Certification program allows an employer to hire a foreign worker to work permanently in the United States.



H-2B Program Needs to be Strengthened                                foreign workers’ employment period ended and took up to
to Ensure Adequate Protections for U.S.                              120 days to complete. Because of the timing and duration
                                                                     of the audits, an employer could potentially file and receive
Workers
                                                                     a new certification for a subsequent application before ETA
                                                                     rendered a decision of compliance/non-compliance for a
To obtain H-2B certification and comply with employment
                                                                     previous application.
protections, employers must self-attest that U.S. workers
capable of performing the job are not available and that the
                                                                     ETA issued a Final Rule in February 2012 that would replace
employment of foreign workers will not adversely affect
                                                                     the self-attestation model with a compliance-based
the wages and working conditions of similarly employed
                                                                     format, which would require the review of documentation
U.S. workers. The OIG conducted a performance audit
                                                                     provided to ETA in advance of ETA making the certification
of the H-2B program to determine if ETA’s management
                                                                     determination. However, the rule has been challenged in
of the H-2B program ensured adequate protections for
                                                                     court and has not been implemented.
U.S. workers. This expanded on a 2011 audit of the H-2B
program focusing on forestry employers in Oregon. We
                                                                     We made four recommendations to ETA: (1) to review
reviewed H-2B applications for 33 employers in six states
                                                                     payroll source documentation when conducting
in order to determine if the attestations made on their
                                                                     post-adjudication audits; (2) to collaborate with the
respective applications could be supported and if ETA
                                                                     Department of Homeland Security to explore ways for
adhered to current program regulations.
                                                                     ETA to review U.S. Citizenship and Immigration Services
                                                                     documents during post-adjudication audits; (3) to begin
Our audit found that ETA’s management of the H-2B
                                                                     post-adjudication audits no later than 120 days into the
program needed to be strengthened to ensure adequate
                                                                     approved employment period of the selected application
protections for U.S. workers. Of the 33 employers that
                                                                     and complete within 70 days; and (4) to continue pursuing
were reviewed, 27 could not support the attestations
                                                                     regulatory action and explore other ways to ensure the
made on their applications, such as those related to pre-
                                                                     integrity of the program – including, but not limited to,
filing recruitment. While ETA began conducting post-
                                                                     legislative changes designed to expand ETA’s pre-approval
adjudication audits in 2009 to verify the accuracy of the
                                                                     validation authority. ETA generally agreed with three of
applications and ensure integrity within the H-2B program,
                                                                     the recommendations. The OIG modified the fourth
the audits were typically initiated six months after the


8       Semiannual Report to Congress: April 1– September 30, 2012
                                Employment and Training Programs

recommendation to incorporate an ETA concern: for ETA         Manpower Supply Company Owner
to seek regulatory changes to ensure the integrity of the     Sentenced for Role in Visa Fraud Scheme
H-2B program. (Report No. 06-12-001-03-321, September
28, 2012)                                                     Yoo Taik Kim, owner of Hi-Cap Enterprises, a manpower
                                                              supply company, was sentenced on April 19, 2012, to
Fugitive Extradited from Italy Sentenced                      more than three years in prison, three years of supervised
in Employee Leasing Scheme                                    release, and was ordered to pay a fine of $125,000 for his
                                                              role in a visa fraud scheme. Kim had previously been found
Lucia Kanis was sentenced on April 18, 2012, to more          guilty of visa fraud, making false statements, and unlawful
than two years in prison and ordered to pay nearly            procurement of citizenship. Kim, who is a naturalized U.S.
$2 million in restitution in connection with her role in an   citizen, was stripped of his citizenship as a result of his
illicit nationwide employee-leasing scheme. Kanis, who        conviction and for lying on his citizenship application. He
had fled to Slovakia before charges were brought against      will also face possible deportation to his native country of
her in 2005, was arrested in Bologna, Italy, on May 16,       Korea upon completion of his sentence.
2011, and was extradited to the United States to face
prosecution for conspiring to defraud the United States       Through his company, Kim contracted with a corporation
and evading taxes.                                            to provide temporary workers for a large construction
                                                              project in northern California. Although he had been
From 1995 through January 2005, Kanis and her co-             notified by the corporation that its labor needs had
defendants arranged for more than 550 undocumented            dwindled, making further recruitment unnecessary, in
foreign nationals to work in several industries in            2001, unbeknownst to the corporation, Kim continued to
the midwest and southeastern United States. The               recruit on its behalf, bringing a total of 49 welders from
defendants, who had set up entities to act as employee-       Thailand to San Francisco. The corporation ultimately hired
leasing companies, contracted with legitimate American        10 of the welders. Kim and his associates transported the
companies to provide them legally authorized workers.         remaining 39 workers to southern California, where they
Instead, the defendants provided workers lacking legal        lived in substandard conditions in apartments provided
work status, and failed to pay applicable Federal payroll     by Kim’s company. With no source of income and facing
and unemployment taxes on behalf of the employees. The        potential arrest and deportation for being in violation
last remaining defendant has been charged but remains a       of their visas, the workers survived by working for little
fugitive. All other defendants have pled guilty.              or no pay in two Thai restaurants owned by Kim. Many
                                                              of the workers, who were recruited from some of the
This was a joint investigation with Immigration and           poorest areas of Thailand, had secured loans from family
Customs Enforcement (ICE) and Internal Revenue Service        and friends to pay their travel expenses and substantial
– Criminal Investigative Division (IRS-CID), along with       recruitment fees associated with their coming to work in
assistance from the Italian Ministry of Justice. United       the United States. These payments were made to a Thai
States v. Lucia Kanis (S.D. Florida)                          recruitment agency working with Kim’s company.

                                                              This was a joint investigation with ICE. United States v. Yoo
                                                              Taik Kim (C.D. California)




                                                               Semiannual Report to Congress: April 1– September 30, 2012   9
                                    Employment and Training Programs

Foreign National Sentenced for Visa Fraud                            some of whom paid up to $30,000 for false employment
                                                                     sponsorships. David also paid dozens of business owners
Srinivas Doppalapudi, owner of an employment leasing                 to either use their businesses or personal identities to
company, was sentenced on September 26, 2012, to more                create shell companies in order to falsely represent to
than one year in prison for his role in an H-1B visa fraud           DOL that they were willing to or had legitimately hired
scheme. He had previously pled guilty to visa fraud and              these foreign nationals. David and his co-conspirators then
money laundering, and had agreed to forfeit $345,000 in              manufactured letterhead used to produce fake experience
proceeds from the fraud.                                             letters, asserting that the foreign nationals possessed the
                                                                     specialized experience required for the jobs. He further
From April 2008 through December 2010, Doppalapudi                   enlisted the help of accountants to create counterfeit tax
submitted 31 fraudulent H-1B visa applications for                   returns for the fictitious sponsoring employers and bribed
non-existent information technology positions with his               a former DOL contractor to manipulate information on
employment leasing company. As part of the scheme,                   DOL petitions. The vast majority of the more than 25,000
he created fictitious service contracts with forged                  immigration applications filed by David’s firm contained
signatures. After the foreign nationals received their visas,        fraudulent information. As a result of this scheme, DOL
Doppalapudi did not employ them. Some of the foreign                 issued thousands of labor certifications for David’s clients
nationals were able to find jobs in the IT industry; however,        who did not otherwise meet the legal requirements for
Doppalapudi further exploited them by requiring that                 employment.
they pay him 25 percent of their salaries since he was the
holder of their H-1B visas. Doppalapudi transferred more             In addition, Maritza Diaz, a former named partner with
than $1 million derived as a result of this scheme to his            David’s law firm, was disbarred on August 7, 2012 for
personal bank account in India.                                      her role in the scheme and for pleading guilty to one
                                                                     count of conspiring to commit immigration fraud. Other
This was a joint investigation with the IRS-CID, ICE, and the        conspirators who pled guilty include Mayor Weber,
United States Citizenship and Immigration Service – Office           who pled guilty on September 28, 2012, and Alexandra
of Fraud Detection and National Security. United States v.           Urbanek, who pled guilty on September 21, 2012. In
Srinivas Doppalapudi (D. Delaware)                                   addition, Andre Herbst and Chaim Walter each pled
                                                                     guilty on September 6, 2012, and Aryea Yehuda Flohr pled
Lawyer Pleads Guilty to Massive                                      guilty on May 7, 2012. All pled to conspiracy to commit
                                                                     immigration fraud in connection with their roles as alleged
Immigration Fraud
                                                                     sponsoring employers. Twenty-five defendants have been
                                                                     charged as part of the investigation – more than half have
Earl Seth David, an immigration lawyer, pled guilty on April
                                                                     pled guilty.
2, 2012, to conspiracy to commit immigration, mail, and
wire fraud. As part of his plea, David agreed to forfeit at
                                                                     This is a joint investigation with ICE. United States v. Earl
least $2.5 million in proceeds from the scheme.
                                                                     Seth David, et al. (S.D. New York)

From at least 1996 through 2011, David operated a
Manhattan-based immigration law firm that made millions
of dollars by filing thousands of false employment-based
labor certification petitions with DOL. David conspired with
other employees of his firm to solicit foreign nationals,

10      Semiannual Report to Congress: April 1– September 30, 2012
                                 Employment and Training Programs

California Attorney Pleads Guilty to Visa                       workers between $6,000 and $50,000, depending upon
Fraud Scheme                                                    the length of legal status and the type of visa sought. Giles
                                                                received nearly $300,000 in compensation for filing the
Kelly Giles, a former California immigration attorney, pled     fraudulent petitions.
guilty on September 13, 2012, to one count of conspiracy
to commit visa fraud and one count of witness tampering         During 2007, Giles became aware that Federal agents
for his role in an employment-based visa fraud scheme.          wanted to interview a foreign worker purportedly hired
                                                                to work at one of the shell companies. Giles and a co-
Giles and his co-conspirators devised a scheme to               conspirator attempted to persuade the foreign worker to
file at least 47 false employment-based immigration             lie to the agents by falsely claiming that he was working at
petitions with DOL and the United States Citizenship and        the sponsoring company. This was the basis for the witness
Immigration Services. As part of the scheme, two of Giles’      tampering charge. Giles’ co-conspirators previously pled
co-conspirators established shell companies in order to         guilty for their roles in the scheme.
file fraudulent immigration petitions. In each instance,
Giles certified the fraudulent paperwork as the attorney        This was a joint investigation with ICE. United States v. Kelly
of record. His co-conspirators then charged the foreign         Giles (C.D. California)



                               Workforce Investment Act
    In Fiscal Year (FY) 2012, the Department’s Employment and Training Administration (ETA) was appropriated
  $3.2 billion for the Workforce Investment Act (WIA) Adult, Dislocated Worker, and Youth programs. WIA adult
  employment and training services are provided through formula grants to states and territories, or through competitive
  grants to service providers to design and operate programs for disadvantaged, often unemployed persons. ETA also
  awards grants to states to provide reemployment services and retraining assistance to individuals dislocated from
  their employment. Youth programs are funded through grant awards that support program activities and services
  to prepare low‐income youth for academic and employment success, including summer jobs.



Changes Can Provide ETA Better                                  to WIA’s core and intensive services. Under WIA, SWAs and
Information on Participants Co-Enrolled                         Local Workforce Agencies (LWA) are permitted to enroll
                                                                participants in more than one program at a time, as long
in WIA and Wagner Peyser Programs
                                                                as they are eligible for the services received. ETA has in
                                                                fact encouraged SWAs to co-enroll participants, reasoning
ETA awards more than $2 billion annually to State
                                                                that they should be able to receive the best combination of
Workforce Agencies (SWA) to operate the WIA Adult and
                                                                services from different available programs. We conducted
Dislocated Worker and Wagner-Peyser programs. WIA
                                                                a performance audit to determine the extent to which
provides three tiers of workforce investment services to
                                                                SWAs and LWAs have co enrolled participants in the
adults and dislocated workers: core, intensive, and training;
                                                                WIA Adult and Dislocated Worker and Wagner-Peyser
and Wagner-Peyser provides a range of employment-
                                                                programs, what steps have been taken to ensure program
related labor exchange services, some of which are similar

                                                                 Semiannual Report to Congress: April 1– September 30, 2012   11
                                   Employment and Training Programs

costs are properly allocated to the two programs, and                  services that had been provided to participants by the
what challenges, if any, remain as a result of implementing            other programs.
co-enrollment.
	                                                                   We made three recommendations to ETA: work with
Our audit found that the practice of co-enrolling                   stakeholders in developing a plan for a comprehensive
participants was widespread among SWAs, with all but                unified reporting system; identify and share practices
one of the 53 SWAs reporting that they were co-enrolling            that SWAs used to address the challenges of efficiently
participants in the WIA Adult and Dislocated Worker and             providing services by staff funded under WIA and Wagner-
Wagner-Peyser programs. ETA data showed that, as of                 Peyser; and notify SWAs that, when co-enrolling, it is
March 31, 2011, approximately 88 percent of WIA Adult               important to ensure all one-stop center staff can access
and Dislocated Workers nationwide were reported as co-              information on services provided to participants to avoid
enrolled with Wagner-Peyser. We also found that both                duplication of services. ETA generally agreed with our
SWAs and LWAs have processes in place to ensure WIA                 recommendations, but reiterated that co-enrollment is not
and Wagner-Peyser programs bear their fair share of costs.          statutorily or regulatory based, but rather is a voluntary
                                                                    tool for the states to use in the design of their service
Our audit showed that ETA faces three co-enrollment                 delivery. As such, ETA has not issued specific guidance on
challenges:                                                         co-enrollment. (Report No. 03-12-004-03-390, September
                                                                    28, 2012)
1) A reporting mechanism was not developed that
   could separately account for and report outcomes on
   participants who were concurrently receiving services
   funded by multiple programs. With co-enrollment, the
   number of Wagner-Peyser participants was included
   in the counts for WIA Adult and Dislocated Worker
   programs. As a result, it was impossible under WIA’s
   present reporting system to determine the level
   of effort that was provided by each program for a
   particular participant outcome.

2) Wagner-Peyser’s requirement that program services
   be provided only by state employees complicated the
   SWAs’ and LWAs’ flexibility to co-enroll participants.
   The SWAs’ Employment Service agencies responsible
   for administering the Wagner-Peyser program, and
   LWAs responsible for administering WIA programs,
   had to coordinate resources when co-located at one-
   stop centers.

3) The risk of duplicative services being provided to co-
   enrolled participants increased when one-stop center
   staff did not have access to information on specific


12     Semiannual Report to Congress: April 1– September 30, 2012
                                Employment and Training Programs

                                                  Job Corps
    The Job Corps program provides residential education, training, and support services to approximately 60,000
  disadvantaged, at-risk youths, ages 16-24, at 125 Job Corps centers nationwide both residential and nonresidential.
  The goal of this $1.7 billion program is to offer an intensive intervention to this targeted population as a means to
  help them turn their lives around and prevent a lifetime of unemployment, underemployment, dependence on social
  programs, or criminal behavior.



Best Value Not Ensured in Awarding of                          The OIG recommended that ETA: recover the questioned
Subcontracts at the Oneonta Job Corps                          costs; direct ETR Oneonta to strengthen procurement
                                                               procedures and provide training and oversight to ensure
Center
                                                               compliance with its own procurement criteria; and
                                                               direct ETA contract personnel and Job Corps regional
Education and Training Resources, Inc. (ETR), is under
                                                               staff to review all future ETR Oneonta subcontracts for
a five-year, $48 million contract with the ETA Office of
                                                               competition and best value prior to award approval. ETA
Job Corps to operate the Oneonta Job Corps Center (ETR
                                                               generally agreed with our findings, and fully or partially
Oneonta). The OIG conducted a performance audit of ETR
                                                               accepted our recommendations. (Report No. 26-12-001-
Oneonta to determine whether it ensured best value when
                                                               03-370, June 22, 2012)
awarding subcontracts and claiming costs.

Our audit of ETR Oneonta subcontracts and expenditures         Job Corps Oversight of Center Performance
from April 1, 2010, to March 31, 2011, found that ETR          Needs Improvement
did not always ensure best value for the government
when awarding subcontracts and purchase orders. We             Job Corps uses a complex performance management
found that ETR Oneonta had not established a control           system to assess program effectiveness across 125 Job
environment to ensure consistent compliance with the           Corps centers nationwide. We conducted a performance
procurement procedures approved by Job Corps. In               audit to determine the extent to which Job Corps
addition, we found that neither ETA contracting personnel      ensured that its centers managed their academic and
nor Job Corps regional staff adequately monitored ETR          career technical training (CTT) programs in order to meet
Oneonta’s subcontracting procurement activities, as            performance goals and maximize student achievements.
required.                                                      The scope of the audit included Job Corps performance
                                                               data for PYs 2008 through 2010 (July 1, 2008 – June 30,
Our review showed that ETR Oneonta improperly awarded          2011).
all six of the center subcontracts and two of the corporate
subcontracts that it managed during OIG’s review period.       Our audit found that Job Corps initiated several major
We found that ETR Oneonta did not ensure adequate              programmatic shifts and policy changes that resulted in
competition or document a sound basis for the awards.          improved performance across all three of its Government
As a result, the OIG questioned $537,400.                      Performance and Results Act performance indicators
                                                               during program years 2008 through 2010. However,


                                                                 Semiannual Report to Congress: April 1– September 30, 2012   13
                                    Employment and Training Programs

we found that individual centers did not consistently                Conflict of Interest Complaint on a Job
meet established Career Technical Training program                   Corps Center Operator Subcontract Award
completion and High School Diploma/General Educational
                                                                     Had Merit
Development Certificate (HSD/GED) attainment goals.
We also found that Job Corps did not provide sufficient
                                                                     ETA referred to the OIG an anonymous complaint
oversight at the center level to improve performance.
                                                                     concerning a subcontract to provide academic and career
                                                                     technical training services at the Homestead Job Corps
Specifically, we found that Job Corps did not effectively
                                                                     Center, which is operated by ResCare, Inc. According to the
use Performance Improvement Plans (PIP), Regional
                                                                     complaint, an executive at ResCare violated government
Office Center Assessments (ROCA), or on-site monitoring
                                                                     procurement requirements when awarding a subcontract
and desk reviews to ensure that center programs met
                                                                     to Human Learning Systems (HLS). The subcontract was
performance goals and maximized student achievements.
                                                                     valued at an estimated $8.4 million. The OIG conducted
Furthermore, the CTT evaluation process Job Corps used
                                                                     a performance audit to determine the merits of the
to initiate PIPs did not effectively identify underperforming
                                                                     complaint.
CTT programs. Also, changes made to the evaluation
process for PY 2010 further reduced Job Corps’ ability to
                                                                     The OIG audit found that ResCare violated the Contractor
identify poor performers.
                                                                     Code of Business Ethics and Conduct competition
                                                                     requirements under the Federal Acquisition Regulation
We found that Job Corps did not use ROCAs effectively
                                                                     (FAR), as well as ResCare’s own procurement policies
to improve CTT program performance. Job Corps policy
                                                                     and procedures in awarding the subcontract to HLS. Our
required ROCAs at least once every 24 months – which
                                                                     audit found that ResCare did not advertise or open the
was supposed to cover all aspects of center operations.
                                                                     subcontracting opportunity for competition to other
However, Job Corps did not place sufficient emphasis on
                                                                     subcontractors, and did not justify the sole source
CTT programs during ROCAs and did not conduct them as
                                                                     procurement as required. Moreover, we found that
frequently as required. The OIG estimated that $37 million
                                                                     ResCare allowed an executive vice president to award
in funds could be put to better use if improvements to Job
                                                                     the subcontract to a company owned and operated by
Corps’ oversight resulted in the underperforming programs
                                                                     a subordinate, which represents a significant conflict of
meeting performance goals and up to $118 million if all
                                                                     interest.
the students who were enrolled in the underperforming
programs graduated.
                                                                     The education and training programs were critical to the
                                                                     center’s success in meeting Job Corps’ mission to provide
We made five recommendations for ETA requiring Job
                                                                     quality training to at-risk youth. However, by awarding the
Corps to provide oversight that ensured PIPs, ROCAs,
                                                                     subcontract to HLS without competition, ResCare did not
and other monitoring methods are used effectively to
                                                                     ensure that the Homestead Job Corps Center obtained
identify underperforming CTT and HSD/GED programs,
                                                                     training services that provided the greatest overall benefit
and improve performance. ETA did not completely agree
                                                                     for these at-risk youth at a fair price. We questioned the
with the conclusions. However, Job Corps either planned or
                                                                     approximately $385,000 paid to HLS as part of its cost plus
took corrective actions to address the recommendations.
                                                                     fees subcontract.
(Report No. 26-12-006-03-370, September 28, 2012)

                                                                     We made four recommendations to ETA: recover the fees
                                                                     DOL reimbursed ResCare for HLS’s services at Homestead;

14      Semiannual Report to Congress: April 1– September 30, 2012
                                 Employment and Training Programs

take further remedial action as allowed by the FAR and the     policies and procedures; and implement procedures to
ResCare contract; review all future ResCare subcontracts       ensure each subcontract issued by a Job Corps center
for procurement compliance and ETA approval prior              operator is free of potential conflicts of interest. ETA
to award and ensure ResCare complies with its center           accepted the recommendations. (Report No. 26-12-004-
operator contract provisions and its own procurement           03-370, September 28, 2012)


                              Bureau of Labor Statistics
    The Bureau of Labor Statistics (BLS) is responsible for measuring labor market activity, working conditions, and
  price changes in the economy. BLS collects, analyzes, and disseminates economic information to support public and
  private decision making.



Security of Pre-Release Economic Data in                       violated in the LMI cooperative programs. However, our
the BLS/State Labor Market Information                         review of the circumstances surrounding the possible
                                                               mishandling of BLS data in North Carolina and Wisconsin
Cooperative Programs Needs to be
                                                               revealed differences in the types of data that were
Strengthened
                                                               released. We found the early release of BLS estimates
                                                               by North Carolina violated the cooperative agreement.
After receiving a Congressional request, the OIG conducted
                                                               Conversely, we found the early release of employment data
a performance audit to determine whether states violated
                                                               by Wisconsin did not violate the cooperative agreement
any Federal statutes or BLS requirements related to
                                                               because BLS considered the data to be state-owned until
protecting confidential pre-release information in the
                                                               it was provided to BLS.
BLS/State Labor Market Information (LMI) cooperative
programs, and to what extent BLS ensured that states
                                                               In addition, we found that all four states reviewed violated
were protecting the information from unauthorized use or
                                                               some aspect of the BLS requirements established by
disclosure. Our audit covered North Carolina, Wisconsin,
                                                               the LMI cooperative agreement to protect pre-release
Washington, and Louisiana.
                                                               information from unauthorized use or disclosure. We
                                                               identified instances of individuals who, without proper
BLS uses cooperative agreements with states in order
                                                               authorization, had access to pre-release information, and
to provide funding for the collection and analysis of LMI
                                                               some individuals who were using state email accounts
data. Economic data and statistics that have not yet been
                                                               to transmit pre-release information rather than the
released to the public are called “pre-release information,”
                                                               required BLS email accounts. Additionally, two states
and considered confidential by BLS. The confidentiality
                                                               allowed individuals to have remote access to pre-release
provisions of the cooperative agreements require that
                                                               information but had not received the required approval
pre-release information not be disclosed or used in an
                                                               to do so from BLS. The violations occurred because BLS
unauthorized manner, and be accessed by authorized
                                                               relied on the states to follow the cooperative agreement
persons only, before it is released to the public.
                                                               but did not actively monitor their compliance with agency
                                                               confidentiality requirements.
Our audit found that no Federal statutes related to pre-
release information existed. As a result, no statutes were

                                                                Semiannual Report to Congress: April 1– September 30, 2012   15
                                   Employment and Training Programs

We found that BLS could do more to ensure that the
states protect pre-release information. The cooperative
agreement BLS used lacked clear definitions and
appropriate controls to protect pre-release information,
allowing for inconsistent interpretations by states and
BLS regional offices about what information was subject
to the BLS confidentiality requirements. The cooperative
agreement also lacked appropriate controls to fully protect
pre-release information. Although BLS had extended some
provisions of the Office of Management and Budget (OMB)
Statistical Policy Directive (SPD) No. 4 to the cooperative
agreement, it did not extend all of the provisions intended
to protect the release and dissemination of statistical
products.

BLS has proposed to extend more provisions from OMB
SPD No.4 by incorporating the provisions into the FY
2013 cooperative agreement to strengthen controls over
pre-release information. However, such an effort may
introduce additional control weaknesses. The FY 2013
cooperative agreement will require that individuals be
made aware of and acknowledge their responsibilities to
protect pre-release information and that releases issued
by state LMI units be policy neutral. However, individuals
who are not designated BLS agents will not be required
to acknowledge in writing their responsibilities to protect
pre-release information, and the FY 2013 cooperative
agreement does not clearly state whether individuals
will be informed of their responsibilities annually. These
weaknesses may result in state employees not fully
understanding and being held accountable for their
responsibilities to protect pre-release information.

We made five recommendations to BLS to strengthen
its controls over cooperative agreements to the
extent possible. BLS agreed with three of the
five recommendations, but disagreed with two
recommendations and some elements of the individual
findings. BLS’s comments did not result in any substantive
changes to the final report. (Report No. 17-12-005-11-001,
September 28, 2012)


16     Semiannual Report to Congress: April 1– September 30, 2012
Worker Safety, Health, and
    Workplace Rights




                 Semiannual Report to Congress, Volume 62
                           Worker Safety, Health, and Workplace Rights


             Mine Safety and Health Administration
    The Federal Mine Safety and Health Act of 1977(Mine Act), as amended by the Mine Improvement and New
  Emergency Response Act of 2006 (MINER Act), charges the Mine Safety and Health Administration (MSHA) with
  protecting the health and safety of more than 300,000 men and women working in our nation’s mines.



MSHA’s Accountability Program Faces                                 We also found that a number of high-risk deficiencies
Challenges but Makes Improvements                                   identified by MSHA’s own accountability reviews during CY
                                                                    2009 recurred during CYs 2010 and 2011 at one or more of
MSHA established an accountability program in 1989                  the four districts we sampled. Those deficiencies included
to evaluate the quality of its enforcement activities               inadequate documentation, failing to conduct safety
and provide reasonable assurance that its enforcement               and health inspections on all working shifts, and lack of
personnel consistently comply with policies and                     supervisory reviews of the work performed by inspectors
procedures. An Office of Accountability was established             and specialists. Overall, MSHA did not implement – or
in 2007 to provide better oversight of the accountability           could not demonstrate it had implemented – 10 percent
program. In response to a Congressional request, the OIG            of corrective actions required by the accountability reviews
conducted a performance audit of MSHA’s accountability              in our sample.
program to determine if the agency had implemented
the recommendations and corrected the deficiencies                  MSHA has made recent changes to its organizational and
that were identified in a 2007 OIG audit report, as well            reporting structure, as well as revisions to its policies and
as deficiencies identified in MSHA’s own accountability             procedures to improve the accountability program.
reviews. The audit covered the 14 recommendations
from our 2007 audit report, and a statistical sample of             We made four recommendations to MSHA to further
153 findings and related corrective actions from MSHA’s             improve the accountability program. MSHA agreed with
accountability reviews conducted during calendar years              our recommendations and committed to developing and
(CY) 2009-2011.                                                     implementing corrective actions. (Report No. 05-12-002-
                                                                    06-001, September 28, 2012)
Although there were significant improvements in this
program since our review in 2007, we found that MSHA                Interim Report: MSHA Needs to
continues to face challenges in administering a successful          Strengthen Planning and Procurement
accountability program. Our audit found that one of                 for Metal and Nonmetal Mine Rescue
the 14 recommendations contained in our 2007 audit                  Contests
report — to develop and implement a tracking system
for corrective actions — was not fully implemented in               Every two years, MSHA organizes and hosts Metal
one district. Without consistently using a tracking system,         and Nonmetal National Mine Rescue Contests which
MSHA runs an increased risk of failing to identify systemic         are designed to sharpen the rescue skills and test the
and recurring deficiencies, as well as instances in which           knowledge of mine rescue professionals who are called
corrective actions have not been implemented.                       on to respond to a mine emergency. The contests require


18     Semiannual Report to Congress: April 1– September 30, 2012
                         Worker Safety, Health, and Workplace Rights

rescue team members to solve a hypothetical problem            MSHA’s Oversight of Mine Operators’
while being timed and observed by judges.                      Training Plans was Adequate
MSHA has held the last five contests in Reno, Nevada,          MSHA is responsible for reviewing, approving, and
and planned to hold the 2012 contest there as well. We         monitoring mine operators’ health and safety training
initiated a performance audit after receiving several          plans. The OIG conducted a performance audit to
complaints alleging MSHA wasted hundreds of thousands          determine whether MSHA carried out these responsibilities
of dollars for the contests.                                   as required by the Mine Act.

Although the audit of MSHA contests is still underway,         During Fiscal Year (FY) 2010, MSHA reviewed a total of
our interim audit report issued to MSHA for immediate          3,244 training plans submitted by mine operators. The
action found that MSHA did not follow proper approval          OIG’s review of a sample of 163 training plans found that
and contracting procedures in awarding the contracts           MSHA generally reviewed, approved, and monitored mine
for the 2012 contests. MSHA also did not document its          operators’ required training plans in a timely manner.
fee structure methodology, or fully account for contest        Although MSHA did not document its review of four plans,
fees and costs. Further, MSHA did not comply with an           and two of the reviewed plans had minor deficiencies not
October 12, 2011, memorandum from the Deputy                   identified by MSHA, the OIG did not consider those six
Secretary requiring written approval of all conference-        exceptions to indicate a systemic problem. Our audit also
related activities and expenses prior to commitment of any     found that MSHA’s policies and procedures for reviewing
funds. Although MSHA chose the venues and contracted           and approving training plans complied with Federal laws
for space, it could not detail how it calculated the entry     and regulations, but we noted that procedures varied
fees it charged participants and passed these fees directly    among its district offices nationwide. Accordingly, there
to the hotel instead of depositing them into a custodial       were no recommendations as a result of this audit. MSHA
account and using them to cover contest costs. Moreover,       agreed with the audit results contained in this report.
MSHA did not have a structure in place to account for          (Report No. 05-12-003-06-001, September 28, 2012)
the fees after they were received by the hotel or for the
costs related to those fees. These issues occurred because
MSHA did not solicit the assistance of its procurement staff
early enough in the planning process for the 2012 contest.

We made five recommendations to MSHA to improve
controls over contracting in general, and conference
planning in particular. MSHA stated that it postponed its
next contest until 2013 and has already imposed greater
internal fund controls and procedural improvements to
address identified shortcomings. (Report No. 05-12-004-
06-001, September 28, 2012)




                                                                Semiannual Report to Congress: April 1– September 30, 2012   19
                           Worker Safety, Health, and Workplace Rights

     Occupational Safety and Health Administration
    The Occupational Safety and Health Administration (OSHA) was established by the Occupational Safety and Health
  Act of 1970 (OSH Act). OSHA’s mission is to assure that every working man and woman in the American workplace has
  safe and healthy working conditions. OSHA does this by setting and enforcing workplace safety and health standards;
  providing training, outreach, and education; and encouraging continuous improvement in workplace safety and health.




OSHA Needs to Improve Oversight Over                                OSHA was not aware of systemic weaknesses in areas such
the Management Accountability Program                               as civil penalty determination and violation abatement.


OSHA implemented the Management Accountability                      In addition, the Directorate did not develop training
Program (MAP) in FY 2006 to improve its oversight of                guidelines for staff or provide comprehensive procedures
OSHA programs. The MAP program was implemented in                   for carrying out duties related to the MAP program.
response to a Government Accountability Office report               Guidance for conducting reviews lacked the detail and
that found OSHA was not using reports from its regional             clarity needed to ensure that reviews achieved the
offices to monitor the extent to which penalties were               intended results on a consistent basis across regions. The
calculated correctly and violations were properly abated.           OIG found little consistency among the regional offices
The OIG conducted a performance audit of the program                that were sampled with respect to how those offices
to determine if OSHA’s Directorate for Evaluation and               selected topics for review. As a result, audit reviews were
Analysis’s (the Directorate) oversight of MAP helped                inconsistent from region to region and the Directorate
ensure that programs were effective and in compliance               could not demonstrate that serious weaknesses
with national policies and procedures. The Directorate is           detected through MAP were addressed systematically.
responsible for overseeing MAP, and serves as the focal             The systemic weaknesses in oversight occurred because
point for the collection and dissemination of regionally            OSHA did not emphasize the critical importance of MAP
reported results.                                                   in providing OSHA with information on the performance
                                                                    of its programs. At the time of the audit, the Directorate
The OIG audit found that the Directorate did not effectively        had assigned only one non-dedicated position the
ensure that OSHA regional and area offices performed                responsibility of performing day-to-day MAP operational
adequately and in compliance with national policies                 activities.
and procedures. The main component of MAP requires
that OSHA’s regional offices identify both deficiencies             The OIG recommended that OSHA strengthen oversight
in performance and best practices to improve program                of MAP by prioritizing procedure development and
results. Although regional offices provided reports                 enforcement, holding management responsible for MAP,
containing findings to the Directorate, it did not identify         and determining how best to reallocate resources so that
and disseminate information of either systemic program              the Directorate can perform its monitoring and oversight.
weaknesses or best practices to other regions. As a result,         In its response to the draft report OSHA had no comments.
                                                                    (Report No. 02-12-204-10-105, September 27, 2012)



20     Semiannual Report to Congress: April 1– September 30, 2012
                          Worker Safety, Health, and Workplace Rights

OSHA’s Site Specific Targeting Program Is                        activities, they do not measure the effect of these actions
Not Effectively Targeting and Inspecting                         on improving safety and health at high-risk worksites.

High-Risk Worksites
                                                                  OSHA has contracted for a study of the SST program that
                                                                 will determine the impact of SST program inspections,
In 1999, OSHA initiated the Site Specific Targeting (SST)
                                                                 detect employer characteristics that are strong indicators
program – an enforcement strategy intended to target
                                                                 of future compliance, and identify best practices and
general industry worksites (non-construction) reporting
                                                                 measures for reducing future occupational injuries and
the highest injury and illness rates. In addition to SST, OSHA
                                                                 illnesses among employers.
has national and local emphasis inspection programs to
target high-risk hazards and industries. The SST program
                                                                 The OIG made three recommendations to OSHA: include
selects worksites based on injury and illness rates
                                                                 the highest risk worksites in the OSHA Data Initiative survey
calculated from employer responses to annual surveys.
                                                                 and the SST program targeting; prioritize and complete
The OIG conducted a performance audit to evaluate the
                                                                 inspections of the highest risk worksites to ensure effective
program’s effectiveness, and to determine the extent to
                                                                 and efficient use of resources; and complete the evaluation
which the SST program focused enforcement resources
                                                                 of the SST program and implement a monitoring system
and inspections on the highest risk industries and
                                                                 to evaluate efficiency and effectiveness of the program
worksites. We reviewed the SST program for the period
                                                                 on an ongoing basis. OSHA partially agreed with our
of August 2010 through September 2011, during which
                                                                 recommendations, but indicated it would like to study
time 13,827 worksites met the program’s targeting criteria,
                                                                 these issues further before making any major policy
and 2,146 were inspected.
                                                                 changes. (Report No. 02-12-202-10-105, September 28,
                                                                 2012)
The OIG audit found that the SST program targeted only
a small portion of high-risk worksites nationwide, and
did not target some of the highest risk industries and
worksites where the most serious injuries and illnesses
occurred. This occurred because 26 percent of worksites
with reported severe injuries and illnesses were outside
the program’s scope based on their number of employees,
location, and/or industry. Additionally, 84 percent of
worksites that were targeted were not actually inspected
due to limited resources and competing local priorities
and other targeting strategies. While the SST program is a
national program, neither OSHA area offices nor state plan
states were required to conduct SST inspections.

With regard to the effectiveness of the program, our
audit found that information on program results was
limited primarily to output measures, such as inspections
completed and citations issued. While those output
measures may be appropriate for monitoring program


                                                                  Semiannual Report to Congress: April 1– September 30, 2012   21
                           Worker Safety, Health, and Workplace Rights

                                 Wage and Hour Programs
    The Wage and Hour Division (WHD) is responsible for enforcing labor laws, such as those that cover: minimum
  wage and overtime pay, child labor, record keeping, family and medical leave, and migrant workers, among others.
  Additionally, WHD administers and enforces the prevailing wage requirements of the Davis-Bacon Act and other
  statutes applicable to Federal contracts for construction and the provision of goods and services. The Davis-Bacon Act
  and related acts require the payment of prevailing wage rates and fringe benefits on Federally financed or assisted
  construction.



Wage and Hour Division Lacked Effective                             We made four recommendations to WHD to improve
Financial Management of Back Wage and                               controls in the accounting and reporting of back wages and
                                                                    CMP receivables. WHD agreed with our recommendations,
Civil Monetary Penalty Receivables
                                                                    but disagreed with certain errors we noted in its
                                                                    accounting over back wages and CMPs. We continue to
WHD is required to submit to the U.S. Department of
                                                                    believe that WHD’s lack of effective financial management
Treasury on a quarterly basis the Treasury Report on
                                                                    of back wages and CMPs increased the risk that staff could
Receivables and Debt Collection Activities (TROR). TROR
                                                                    erroneously write off collectible receivables. (Report No.
provides the status of WHD administrative receivables,
                                                                    22-12-013-04-420, September 28, 2012)
which includes back wage and civil monetary penalty
(CMP) receivables. We conducted an audit to determine
whether WHD had sufficient internal controls to ensure              Complex Embezzlement Investigation
the completeness and accuracy of the data reported to               Leads to Restitution and Plea
Treasury for back wage and CMP.
                                                                    Eli Samuel Gonzalez, owner of B&G Environmental, a
Our audit found that WHD lacked an effective internal               minority-owned company, was sentenced on June 28,
control process to account and report on the status of              2012 to three years’ probation, restitution in the amount
back wage and CMP receivables to Treasury. The number               of $424,764, and 100 hours of community service for
and amount of back wage and CMP receivables were                    filing a false tax return. Also as part of this investigation,
not consistently reported to Treasury, did not agree                Robert Santillo, the former project manager for Cherry Hill
with supporting documentation, or were incorrectly                  Construction, pled guilty on May 25, 2012, to two counts
entered into Treasury’s information system by WHD                   of tax evasion.
staff. Furthermore, WHD relied entirely on a contractor
to prepare the TROR, but did not verify the accuracy and            Gonzalez entered into a subcontractor agreement with
completeness of the data in the spreadsheets that the               Cherry Hill for demolition and asbestos abatement at a
contractor used. As a result, errors were allowed to be             Department of Housing and Urban Development (HUD)
reported and go undetected. Indeed, WHD reported                    property in the city of New Haven, Connecticut. Gonzalez
approximately $13.3 million in net receivables to                   received the $1.2 million dollar contract by claiming that
Treasury; however, supporting documentation showed                  B&G could provide the project with a workforce composed
net receivables to be $22.8 million.                                of at least 25 percent minority workers, a requirement


22     Semiannual Report to Congress: April 1– September 30, 2012
                          Worker Safety, Health, and Workplace Rights

for city of New Haven projects. Instead, the investigation       Vigliotti’s company specialized in public work projects and
revealed that Gonzalez largely used workers from                 post office construction work. The company successfully
Eastern Europe who were in the United States illegally           entered bids for construction work on over 22 post offices,
and therefore not considered minority workers. Rather            schools, firehouses, water districts, and public playgrounds,
than paying his workers the prevailing wage pursuant             all of which were subject to Davis-Bacon prevailing wage
to the Davis-Bacon Act, Gonzalez withdrew hundreds               regulations. Vigliotti not only illegally paid his employees
of thousands of dollars intended to fund B&G’s payroll           in cash but also paid them significantly less than the
for his personal use and failed to report the money he           stipulated prevailing wage rate for the various occupations.
embezzled as income. In furtherance of the scheme, he            He also falsely reported the employees’ wages in certified
also submitted certified payrolls that falsely reported the      payrolls submitted to the U.S. Postal Service.
wages paid to workers. Gonzalez’s sentence was due to his
October 4, 2010, plea to filing a false tax return that failed   This was a joint investigation with IRS-CID, WHD, and the
to disclose the income he received as part of the scheme.        U.S. Postal Service – OIG. United States v. Biagio Vigliotti
                                                                 (E.D. New York)
The investigation disclosed that Santillo formed a
fictitious company, SSC Consultants, for the purpose of
funneling money out of B&G’s payroll account. Through
his relationship with Gonzalez, Santillo had access to
B&G’s payroll account, whereby he diverted more than
$1 million to SSC Consultants for his personal use. As a
result, many paychecks issued from B&G to its employees
were returned for insufficient funds. Santillo failed to
report $795,000 he received fraudulently through SSC
Consultants and evaded $324,000 in Federal tax payments.

This was a joint investigation with Internal Revenue Service
– Criminal Investigative Division (IRS-CID) and HUD – OIG.
United States v. Eli Gonzales (D. Connecticut)


New York Construction Owner Agrees to
Pay $1.3 Million to Workers

Biagio Vigliotti, owner of Luvin Construction and FML
Contracting, pled guilty on July 27, 2012, to criminal
conspiracy to commit mail and wire fraud, and willful
failure to collect taxes. As part of the plea agreement, he
agreed to repay more than $1.3 million in back wages. He
also agreed to pay $283,000 to New York State for state
prevailing wages owed to his workers.




                                                                  Semiannual Report to Congress: April 1– September 30, 2012   23
Worker and Retiree
Benefit Programs




            Semiannual Report to Congress, Volume 62
                                  Worker and Retiree Benefit Programs


         Office of Workers’ Compensation Programs
    The Office of Workers’ Compensation Programs (OWCP) administers four workers’ compensation programs: the
  Energy Employees Occupational Illness Compensation program, the Federal Employees’ Compensation Act (FECA)
  program, the Longshore and Harbor Workers’ Compensation Act program, and the Coal Mine Workers’ Compensation
  program.



Global Health Care Company to pay $1.5 Billion Settlement

On May 7, 2012, Abbott Laboratories Inc., pled guilty and agreed to pay $1.5 billion to resolve its criminal and civil liability
arising from the company’s unlawful promotion of the prescription drug Depakote for uses not approved as safe and
effective by the Food and Drug Administration (FDA).

As a result of the scheme, the Department of Justice alleged that Abbott knowingly caused false and/or fraudulent claims
for Depakote to be submitted to, or caused purchases by, Medicare, Medicaid, and other Federal healthcare programs,
including several programs administered by OWCP.

The agreement includes a criminal fine and forfeiture totaling $700 million and civil settlements with the Federal government
and the states totaling $800 million, of which OWCP will receive $278,788. Abbott also will be subject to court-supervised
probation and reporting obligations for Abbott’s CEO and Board of Directors.

This was a joint investigation with FDA, Department of Health and Human Services – OIG, Department of Veterans Affairs
– OIG, Office of Personnel Management – OIG, Internal Revenue Service, Virginia’s Medicaid Fraud Control Unit, Defense
Criminal Investigative Service, and TRICARE. United States v. Abbott Laboratories (S.D. Virginia)




26     Semiannual Report to Congress: April 1– September 30, 2012
                               Worker and Retiree Benefit Programs


  Federal Employees’ Compensation Act Program
    The FECA program provides workers’ compensation coverage to approximately 2.8 million Federal, postal, and
  certain other employees for work-related injuries and illnesses. Benefits include wage loss benefits, medical benefits,
  vocational rehabilitation benefits, and survivors’ benefits for covered employees’ employment-related deaths. In Fiscal
  Year (FY) 2012, the FECA program made more than $2.1 billion in wage loss compensation payments to claimants
  and processed approximately 20,000 initial wage loss claims. At the end of FY 2012, nearly 50,000 claimants were
  receiving regular monthly wage loss compensation payments.



Controls Over Transportation Cost                               nine claimants, each of whom received more than $35,000
Reimbursements to FECA Claimants                                in transportation reimbursements over a two-year period.
                                                                We found patterns of abuse including overstated mileage
Need Strengthening
                                                                and multiple trips on the same day. We referred these
                                                                claimants for criminal investigations.
FECA medical benefits include reimbursements to
claimants for transportation costs they incur obtaining
                                                                Finally, we found that OWCP’s policies requiring
reasonable and necessary medical services, appliances,
                                                                authorization for claims of more than 200 miles per day
or supplies. For fiscal years (FY) 2010 and 2011, medical
                                                                did not comply with FECA regulations, which required
transportation costs totaled about $13 million annually.
                                                                authorization for round trips of more than 100 miles per
Over the past several years, OIG investigations have
                                                                day. In addition, OWCP did not require claims examiners to
uncovered FECA transportation claim fraud in which
                                                                document how they determined the reasonableness and
claimants submitted travel vouchers for medical visits
                                                                accuracy of mileage amounts charged by claimants, and
that never occurred, or overstated travel mileage for trips
                                                                did not have controls in place to identify and investigate
to pharmacies and medically related appointments. We
                                                                patterns of potential travel fraud or abuse by claimants
conducted a performance audit of FECA transportation
                                                                receiving large amounts of transportation payments.
costs to determine whether OWCP has adequate internal
                                                                Unless controls are improved, transportation cost
controls to prevent unreasonable and/or unallowable
                                                                reimbursements will remain at risk for improper payments.
transportation cost reimbursements to FECA claimants.

                                                                We recommended that OWCP strengthen controls
Our audit found that OWCP did not have adequate
                                                                to reduce the risk of improper overpayments for
internal controls to prevent unreasonable and unallowable
                                                                FECA transportation costs and recover improper
transportation cost reimbursements to FECA claimants.
                                                                reimbursements. OWCP generally agreed with the findings
Our testing of 91 randomly selected claims totaling $12,053
                                                                and recommendations. (Report No. 03-12-004-03-431,
found 21 instances (23 percent) in which OWCP paid claims
                                                                September 28, 2012)
totaling $2,562 (21 percent) without performing required
reviews or obtaining claimant receipts. We also reviewed
22 transportation claims of more than $500 and found
problems in nine claims (27 percent), such as inflated
mileage or bill-processing errors where, for example, a
claimant entered 18.50 miles on the claims form but was
paid for 1,850 miles. Moreover, we reviewed the files for

                                                                  Semiannual Report to Congress: April 1– September 30, 2012   27
                                   Worker and Retiree Benefit Programs

Former Virginia Air Traffic Control                                  for prolonged evaluation and management services,
Specialist Sentenced for Defrauding                                  fraudulently claiming that physicians had spent more
                                                                     time with patients than they actually did. She pressured
OWCP
                                                                     company employees, such as occupational therapists and
                                                                     assistants, to complete comprehensive work-related ability
Raymond Deskins, III, a former air traffic control specialist,
                                                                     assessments known as Functional Capacity Evaluations
was sentenced on May 4, 2012, to two years in prison and
                                                                     (FCE), for every patient, even when unnecessary, and
three years of supervised release for defrauding OWCP. As
                                                                     billed OWCP for multiple FCEs in instances when only one
part of his sentencing, Deskins was also ordered to pay
                                                                     evaluation had been performed. In addition, for patients
$623,438 in restitution to OWCP.
                                                                     with multiple work injuries, Heidarpour often submitted
                                                                     FCE bills for each individual injury and masked the scheme
In June 2004, Deskins submitted a disability claim to OWCP
                                                                     by falsely reporting FCEs on different dates. Heidarpour
for an anxiety disorder. OWCP approved his claim and
                                                                     admitted that she defrauded OWCP by billing and taking
paid him $623,438 in compensation between May 2005
                                                                     payments for other services not provided.
and April 2009. However, from about May 2005 through
August 2008, Deskins worked in the construction industry,
                                                                     This was a joint case with United States Postal Service –
receiving both monetary and in-kind compensation for his
                                                                     OIG and FBI. United States v. Farideh Heidarpour (W.D.
work on various residential and commercial construction
                                                                     Oklahoma)
projects. Deskins failed to report these activities and his
income to OWCP, and repeatedly certified that he was not
engaged in work activity of any kind.                                Two Plead Guilty after Defrauding OWCP
                                                                     of Almost $1.2 Million	
This was a joint investigation with FBI. United States v.
Raymond E. Deskins, III (E.D. Virginia)                              Raymond Alexander and Lamar Pringle each pled guilty on
                                                                     August 23, 2012 and September 26, 2012, respectively, to
Former Oklahoma Billing Manager Pleads                               one count of conspiracy to defraud a health care benefit
                                                                     program. Pringle also pled guilty to one count of health
Guilty to Health Care Fraud
                                                                     care fraud.

Farideh Heidarpour, a former Oklahoma billing manager
                                                                     Both Alexander and Pringle admitted conspiring in a
for the Advanced Occupational Rehabilitation Company,
                                                                     medical payment billing scheme that defrauded OWCP
pled guilty on August 14, 2012, to one count of health care
                                                                     of almost $1.2 million. Alexander, Pringle, and a third
fraud. As part of her plea agreement, she was ordered to
                                                                     conspirator used the stolen identities of legitimate and
pay over $120,000 in restitution, and refund no less than
                                                                     non-existent medical providers to bill OWCP for services
$1 million to OWCP.
                                                                     that were never provided. As a result of this scheme, the
                                                                     defendants fraudulently received more than $1.1 million
In her role as AOR’s billing manager, Heidarpour
                                                                     from OWCP between July 3, 2008 and May 21, 2009.
participated in a variety of schemes to defraud OWCP.
She regularly unbundled services that should have been
                                                                     United States v. Lamar Pringle and Raymond Alexander
billed as part of a single, primary service and instead billed
                                                                     (N.D. Florida)
them to OWCP separately, resulting in more lucrative
reimbursements for AOR. She also regularly billed OWCP


28      Semiannual Report to Congress: April 1– September 30, 2012
                               Worker and Retiree Benefit Programs

                 Unemployment Insurance Programs
    Enacted more than 80 years ago as a Federal–state partnership, the Unemployment Insurance (UI) program is
  the Department’s largest income-maintenance program. This multibillion dollar program assists individuals who
  are unemployed due to lack of suitable work. While the framework of the program is determined by Federal law,
  the benefits for individuals are dependent on state law and are administered by State Workforce Agencies (SWAs)
  in 53 jurisdictions covering the 50 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands, under the
  oversight of the Employment and Training Administration (ETA).



ETA Can Improve Oversight of States’ UI                           We also found that ETA performed quarterly desk
Administrative Costs                                              reviews of the states’ UI administrative activities, but
                                                                  the reviews were limited and generally only verified the
To ensure appropriate funding for administration of the           accuracy and reasonableness of reported data. ETA also
UI program, ETA provides annual formula workload-                 relied on statewide single audits, which were not always
based grants to the states. In fiscal year 2010, ETA              sufficient for testing UI administrative transactions
awarded grants totaling $3.3 billion; in addition, about          and providing adequate oversight. ETA conducted
$300 million in UI administrative grant funds were                comprehensive monitoring reviews of both Maine’s and
awarded under the American Recovery and Reinvestment              Florida’s administrative systems in FY 2009 and FY 2010,
Act. The OIG conducted a performance audit of the ETA             respectively, it reported no issues regarding either state’s
controls over the UI administrative costs of the States of        use of UI administrative funds. We found that the Core
Florida ($151 million) and Maine ($20 million) in order to        Monitoring Guide used in these reviews was generic to
determine whether they complied with applicable Federal           all ETA grants and not program specific. The guide was
requirements, including the Office of Management and              intended to examine basic core activities in order to
Budget (OMB) Circular A-87, Cost Principles for State and         determine a grantee’s readiness and capacity to operate
Local and Indian Tribal Governments.                              the grant.


The audit found that both Maine and Florida were                  The OIG recommended that ETA develop and implement a
inconsistent in their compliance with Federal                     program-specific monitoring guide (that includes detailed
requirements, and that ETA could improve its controls to          transaction testing of state UI administrative costs) and
ensure that states’ UI administrative costs comply with           recover the questioned costs of more than $550,000
Federal requirements. In Maine, we questioned $342,745            from Maine and approximately $41,000 from Florida. ETA
in administrative costs that could not be supported. In           agreed to develop a UI program-specific monitoring guide
addition, our audit showed that Maine improperly charged          and will determine if the questioned costs cited should
$207,434 in administrative costs to the incorrect UI              be recovered. (Report No. 04-12-002-03-315, September
administrative grant: expenses incurred during FY 2009            19, 2012)
were charged to FY 2010 grant funds. As a result, the OIG
questioned a total of $550,179 related to these and other
issues.


                                                                   Semiannual Report to Congress: April 1– September 30, 2012   29
                                   Worker and Retiree Benefit Programs

ETA’s Overpayment Detection Measure                                  extended benefits, states success rate would be 48.5
Flawed                                                               percent, not 52.6 percent. Moreover, we also found
                                                                     that ETA was unable to ensure the reliability of these
Between April 1, 2007, and September 30, 2010, the UI                calculations because the data used in the measure were
program paid $174 billion in benefits to unemployed                  not always validated by ETA.
workers. ETA estimated that $9.4 billion of that amount
represented overpayments that could have been detected               Finally, our audit found that ETA was not fully successful in
by the states. The OIG conducted a performance audit                 getting states to comply with the requirement to perform
to determine whether ETA appropriately measured the                  cross-matches with the National Directory of New Hires,
effectiveness of states’ overpayment detections for both             an important tool available to states to help them combat
state-funded and extended Federal UI benefits.                       overpayments by detecting when a UI claimant has
                                                                     returned to work. As a result, the estimate of detectable
The OIG audit found that the measure used by ETA to                  overpayments may have been also understated.
determine how effectively states detect overpayments
was not calculated correctly, which resulted in states               The OIG made six recommendations to ETA, including:
overstating their success rate. Each year, ETA and the states        implementing an overpayment detection management
use a sample of UI paid claims to estimate the total amount          information measure to include extended benefits;
of improper UI benefit payments for the year. Since some             updating the reporting system to isolate readily detectable
improper payments may not be as cost effective for states            overpayments; and improving data validation. ETA
to detect as others, ETA separately estimates the portion            generally agreed with the recommendations and noted
of total improper payments it believes the states should be          that actions to address these recommendations have
able to detect most efficiently (detectable overpayments)            either been completed or are well underway. (Report No.
and sets a goal for the states to detect 50 percent of such          04-12-001-03-315, September 28, 2012)
overpayments. ETA reported that states overall identified
52.6 percent of the estimated detectable overpayments.               Two Sentenced in Disaster Fraud Case

However, these estimations of improper payments have                 Joseph Harvey and Anja Karin Kannell were each sentenced
historically not considered Federal extended benefits,               on September 26, 2012, to more than 13 years in prison,
which have increased significantly in recent years. In times         five years and two years of supervised release, respectively,
of low unemployment, extended benefits are generally                 and ordered to pay more than $440,000 and $390,000 in
negligible in relation to total benefits paid and have little        restitution, respectively, for their involvement in a series
effect on the calculation of overpayments. Unfortunately,            of disaster-related fraud schemes. Both were previously
with the significant upward spike in unemployment                    convicted of mail fraud, wire fraud, access device fraud,
since 2007, Federal extended benefits have increased                 and aggravated identity theft.
considerably to more than $7.4 billion for the year ended
September 30, 2010. Since Federal extended benefits are              Using fake or stolen identities, Harvey and Kannell
no longer negligible, the measure used by ETA to calculate           fraudulently filed at least 47 Disaster Unemployment
states’ effectiveness in detecting overpayments is no                Assistance (DUA) claims with the Louisiana Workforce
longer appropriate. As a result, states have overstated              Commission, falsely claiming they were victims of the
their success rate in detecting overpayment. Indeed, our             2008 Gulf Coast hurricanes, Gustav and Ike. In addition,
audit showed that if the measure is adjusted to include              the defendants used fake identities to file a total of 76


30      Semiannual Report to Congress: April 1– September 30, 2012
                                Worker and Retiree Benefit Programs

fraudulent Disaster Unemployment Assistance claims             seven other conspirators were indicted in this case. Five
with Job Service North Dakota and the New York State           have pled guilty and been sentenced, and two are fugitives.
Department of Labor, portraying themselves as victims
of storms in both states.                                      This was a joint investigation with FBI and IRS – Criminal
                                                               Investigative Division (CID). United States v. Joseph Rivera
The U.S. Attorney’s Office for the Southern District of        (D. New Jersey)
Florida incorporated these DUA schemes into a larger
investigation that centered on the defendants’ fraudulent      Texas Workforce Commission Employee
claims against the trust fund established by BP Exploration    Sentenced for Internal Unemployment
following the Deepwater Horizon oil rig explosion and spill
                                                               Insurance Scheme
in the Gulf of Mexico.

                                                               DeShon Haynes, a former Texas Workforce Commission
This was a joint investigation with United States Postal
                                                               employee, was sentenced on May 4, 2012, to six years in
Inspection Service (USPIS). United States v. Joseph Harvey
                                                               prison, three years of supervised release, and ordered to
and Anja Karin Kannell (S.D. Florida)
                                                               pay $37,344 in restitution for her role in a UI fraud scheme.
                                                               Haynes had previously pled guilty to aggravated identity
New Jersey Man Sentenced for Accepting                         theft and mail fraud.
More Than $1.8 Million in Bribes
                                                               Haynes used her former position as a Texas Workforce
Joseph Rivera, a former investigator for the New Jersey        Commission (TWC) customer service representative
Department of Labor and Workforce Development                  to manipulate the UI system and collect fraudulent UI
(NJDOL), was sentenced on March 28, 2012, to five years        benefits. She used claimants’ personal information
in prison and three years of supervised release for his role   without their knowledge or consent to reactivate dormant
in a bribery scheme.                                           UI accounts, alter personal identification numbers, and
                                                               change claimant mailing information to addresses that
Between 2002 and 2008, Rivera used his position as             she controlled and where she received new and fraudulent
a NJDOL field investigator to solicit and accept cash          debit cards. Haynes then used the debit cards at various
payments of over $1.8 million from owners or operators         ATMs and retail establishments to collect funds credited
of temporary labor firms. In exchange for the bribes,          to the accounts as a result of the fictitious information
Rivera allowed these firms to evade tax laws and workers’      she provided. Through this scheme, Haynes received over
compensation insurance requirements. He also refrained         $37,000 in fraudulent UI benefits.
from inspecting firms that paid bribes and recommended
those firms to other businesses.                               This was a joint investigation with TWC. United States v.
                                                               DeShon Haynes (N.D. Texas)
Rivera was ordered to pay $250,000 in restitution to
the NJDOL. He was also ordered to forfeit more than
$1.8 million in proceeds from bribes, proceeds from
the sale of three properties and a luxury automobile
worth more than $120,000, and eight gold bars, as well
as numerous gold and silver coins. In addition to Rivera,



                                                                Semiannual Report to Congress: April 1– September 30, 2012   31
                                   Worker and Retiree Benefit Programs

Former California EDD Employee and                                   Chicago Man Sentenced in Unemployment
Recruiters Sentenced for Unemployment                                Insurance Fraud Scheme
Insurance Fraud
                                                                     Roberto Cisneros was sentenced on May 16, 2012 to three
David Paul Holden, a former State of California Employment           years in Federal prison and ordered to pay full restitution
Development Department (EDD) employee, who in May                    to the Illinois Department of Employment Security (IDES)
2012 pled to one count of conspiracy and one count of                for his role in defrauding IDES of nearly $480,000 in UI
bribery, was sentenced on September 4, 2012, to six years            benefits. Cisneros, an undocumented foreign national,
and three months in prison, followed by three years of               also faces deportation upon completion of his sentence.
supervised release, and ordered to pay more than
$510,000 in restitution to EDD.                                      From 2006 to January 2009, Cisneros knowingly assisted
                                                                     undocumented foreign nationals lacking legal work status
In his former position, Holden processed UI claims for               or valid Social Security numbers to apply for UI benefits
EDD and, thereby, had access to its electronic database.             to which they were not entitled. He customarily charged
Both personally and through his accomplices, Holden                  the individuals a $200 to $1,000 fee for the fraudulent UI
recruited more than 50 individuals who were not qualified            applications. Once the applications had been approved
to receive UI benefits and persuaded them to provide                 and the resulting benefit checks sent to addresses that he
him their identifying information so that he could arrange           controlled, Cisneros would collect and cash the checks for
for them to receive UI checks. Holden then manipulated               himself, often telling claimants that their applications had
EDD’s electronic database to make it appear as though the            been rejected. As part of this scheme, Cisneros caused
individuals were entitled to the resulting UI benefits issued        IDES to issue 441 checks to approximately 57 ineligible
by EDD. After receiving the fraudulently issued UI checks,           UI claimants totaling nearly $480,000, of which nearly
the recipients gave Holden’s accomplices cash payments               $261,000 was deposited directly into accounts under his
of up to $5,000, much of which was funneled to Holden.               control.
From March 2010 to January 2011, Holden was responsible
for causing EDD to pay more than $510,000 in fraudulent              This was a joint investigation with USPIS and Immigration
UI benefits, out of which he received more than $40,000              and Customs Enforcement (ICE). United States v. Roberto
in cash kickbacks. No further charges are planned.                   Cisneros (N.D. Illinois)


In August 2012, Narcisco Rodriguez and Ulysses Hernandez,            Illinois Woman Pleads Guilty to
two recruiters who conspired with Holden, also pled guilty           Unemployment Insurance Fraud Scheme
to the scheme. Four other recruiters had previously pled
guilty.                                                              Sylvia Delgado pled guilty on July 31, 2012, to one count of
                                                                     mail fraud for her role in defrauding the Illinois Department
This was a joint investigation with California EDD. United           of Employment Security of nearly $400,000 in UI benefits.
States v. David Holden, et al. (C.D. California)
                                                                     From December 2009 until November 2011, Delgado
                                                                     fraudulently applied for UI benefits on behalf of more
                                                                     than 125 undocumented foreign workers knowing that
                                                                     they were not authorized to work in the United States,
                                                                     and, therefore, not eligible for benefits under Illinois law.

32      Semiannual Report to Congress: April 1– September 30, 2012
                                  Worker and Retiree Benefit Programs

Delgado charged her clients between $150 and $200 for             As part of the scheme, Hollins, Blaylock, and Samuels
each UI application and an additional $20 to $25 for each         provided their personal information to a co-conspirator
biweekly certification submitted in furtherance of the            to report to CA-EDD that the defendants were employed by
scheme. No further charges are planned.                           Tranquil Communications and Couture Recovery Services,
                                                                  two fictitious companies. The co-conspirator then filed
This was a joint investigation with USPIS and ICE. United         fraudulent UI claims on behalf of Blaylock, Crandle, and
States v. Sylvia Delgado (N.D. Illinois)                          Samuels and fraudulent state disability insurance claims
                                                                  for Crandle and Hollins. As a result, CA-EDD paid out more
Guilty Plea in Maryland Fictitious                                than $300,000 in fraudulent unemployment and disability
Employer Scheme                                                   insurance benefits. Charges against the co-conspirator are
                                                                  pending. No further charges are planned.
Kevin Bernard Smith pled guilty on September 20, 2012, to
conspiracy to commit access device fraud and aggravated           This is a joint investigation with FBI, Social Security
identity theft.                                                   Administration–OIG, CA-EDD, and the California
                                                                  Department of Insurance. United States v. Joseph Hollins,
From January 2010 through May 2012, Smith and his co-             et al. (C.D. California)
conspirators conducted a fictitious employer scheme to
fraudulently obtain more than $400,000 in UI benefits from
the State of Maryland. The defendants created fictitious
companies and non-existent employees using stolen social
security numbers, names, and birth dates. They then filed
fraudulent UI claims with the Maryland Department of
Labor under the names of the non-existent employees.
Once the claims were approved, the defendants requested
and received pre-paid debit cards at addresses to which
they had access and used the cards to withdrawal UI funds.
Charges are pending against the other two co-conspirators.

United States v. Kevin Smith, et al. (D. Maryland)


California Accomplices Plead Guilty to
Fictitious Employer Scheme

Joseph Hollins, Claude Blaylock, Jr., and William Samuels
pled guilty in July 2012, to mail fraud for their participation
in a fictitious employer scheme that resulted in the loss of
over $300,000 in UI and state disability insurance benefits
by the State of California Employment Development
Department (CA-EDD). Another accomplice, Dameon
Crandle, also pled guilty on September 7, 2012, to two
counts of mail fraud for his involvement in the scheme.

                                                                   Semiannual Report to Congress: April 1– September 30, 2012   33
                                  Worker and Retiree Benefit Programs


                                    Employee Benefit Plans
    The Department’s Employee Benefits Security Administration (EBSA) is responsible for protecting the security of
  retirement, health, and other private sector employer-sponsored benefit plans for America’s workers, retirees, and
  their families. EBSA has jurisdiction over an estimated 707,000 retirement plans, 2.3 million health plans, and a similar
  number of other welfare plans. These plans hold about $6.7 trillion in assets and cover approximately 141 million
  participants and beneficiaries.



$3.3 Trillion in Assets Excluded From                               who perform pension audits, redesigning its targeting
ERISA Audit Process                                                 methods to identify and correct substandard plan audits,
                                                                    and providing training and outreach activities for plan
ERISA requires most large employee benefit plans to                 auditors. However, we found that the increased use of
obtain annual audits of their financial statements by               limited-scope audits and the continuing lack of legal
independent qualified public accountants (IQPAs). In                authority that limits EBSA’s authority over IQPAs have
2010, EBSA received audited financial statements for                offset these efforts to improve participant protections. We
about 84,000 plans, covering about 93 million participants          also concluded that EBSA’s audit quality review procedures
and 5.7 trillion in assets. EBSA is responsible for ensuring        were incomplete.
those audits meet professional standards and the financial
statements meet reporting and disclosure requirements               Under ERISA, if plan assets are held and certified by certain
of the Employee Retirement Income Security Act of 1974              financial institutions, auditors are not required to test
(ERISA). These requirements were enacted to protect plan            this asset information. When this occurs, it is termed a
participants and beneficiaries from abusive practices in            limited-scope audit and the auditor disclaims an opinion
the nation’s private pension and welfare benefit system.            on the plan’s financial statements. This disclaimer provides
                                                                    no assurances to participants on the reliability of the
To improve the quality of employee benefit plan audits              plan’s financial statements. Between 1987 and 2010, the
and thus better ensure that participants are receiving the          percentage of plans undergoing limited-scope audits grew
protections that these audits are intended to provide,              from about 46 percent to approximately 70 percent. The
EBSA has established and maintained liaisons with private           reported value of assets excluded from plan audits had
sector professional organizations and regulatory bodies on          similarly grown from about $520 billion (43 percent) in
accounting and auditing issues for employee benefit plans.          1989 to $3.3 trillion (58 percent) in 2010.
We conducted a performance audit to determine if EBSA’s
oversight of ERISA audits had improved audit quality and            The use of limited-scope audits is a major obstacle to
increased participant protections.                                  providing audit protections for plan participants, and the
                                                                    OIG has had a long standing legislative recommendation
EBSA has taken significant actions to help improve audit            to repeal ERISA’s limited-scope audit exemption (See Page
quality, including working with the American Institute of           52 for legislative recommendation). However, we also
Certified Public Accountants to establish an audit quality          found that EBSA had not ensured that plan administrators
center that provides guidance and education to IQPAs                presented the current value for plan investments in


34     Semiannual Report to Congress: April 1– September 30, 2012
                               Worker and Retiree Benefit Programs

limited-scope audits, as ERISA required. In addition,
while the ERISA Advisory Council studied limited-scope
audit issues and made recommendations to clarify and
amend limited-scope regulations, EBSA had not formally
evaluated those recommendations, citing other priorities
for its regulatory process.

Our audit also found that EBSA continues to lack the legal
authority to oversee IQPAs adequately. Under ERISA, when
EBSA identifies substandard audit work, it can only reject
the annual filing by the plan administrator and refer the
IQPA to the state accountancy board and/or professional
bodies for disciplinary action. EBSA cannot suspend,
debar, or levy civil penalties against auditors who perform
substandard audits.

Further, our audit found that EBSA’s reviews did not always
sufficiently document that IQPA audits met professional
standards. As a result, EBSA accepted audit work that may
have contained deficiencies that could have adversely
affected participants’ and beneficiaries’ retirement
benefits. We also found that EBSA had not assessed
overall employee benefit plan audit quality since 2004.
As a result, EBSA did not know whether its oversight had
been effective in improving audit quality.

We recommended that EBSA continue pursuing the
legislative changes needed to repeal the limited-scope
audit exemption and obtain direct authority over plan
auditors. In addition, we recommended that in the interim,
EBSA: use its existing authority to clarify and strengthen
limited-scope audit regulations and evaluate the ERISA
Council recommendations; make better use of available
enforcement tools over IQPAs; improve procedures used
in its audit quality reviews; and perform a reassessment
of audit quality. EBSA generally agreed with our
recommendations, stating that it would further examine
its authority and guidance under limited-scope audits,
additional enforcement tools over IQPAs, and the merits of
conducting another reassessment of audit quality. (Report
No. 09-12-002-12-121, September 28, 2012)


                                                              Semiannual Report to Congress: April 1– September 30, 2012   35
                                  Worker and Retiree Benefit Programs


             Office of Labor-Management Standards
    The Office of Labor-Management Standards (OLMS) administers and enforces provisions of the Labor-Management
  Reporting and Disclosure Act of 1959 (LMRDA), as amended. OLMS also administers provisions of the Civil Service
  Reform Act of 1978 (CSRA) relating to standards of conduct for Federal employee organizations, which are comparable
  to LMRDA requirements. These laws promote union democracy and financial responsibility in private and public
  sector labor unions.



OLMS Could Do More to Improve the                                   effectiveness of CAP in safeguarding union assets by
Effectiveness of its Compliance Audit                               verifying LMRDA compliance, (2) implement a risk-based
                                                                    process that will define the most significant LMRDA
Program
                                                                    violations and use strategies to direct OLMS CAP resources
                                                                    to unions with the most significant LMRDA violations,
As part of its oversight of union financial responsibility,
                                                                    and (3) develop a process that documents unions correct
OLMS conducts a Compliance Audit Program (CAP), which
                                                                    financial controls over record-keeping. OLMS generally
is designed to detect embezzlement and other criminal
                                                                    agreed with the issues that the OIG identified during the
and civil violations of the LMRDA, as well as to provide
                                                                    audit but disagreed with two of our recommendations.
compliance assistance to help unions meet statutory
                                                                    OLMS stated that it purposefully did not include civil
requirements. In FY 2011, OLMS received $41.3 million to
                                                                    violations in its performance measure because the
oversee about 25,000 national and local unions reporting
                                                                    primary objective of CAP is detecting embezzlement. The
receipts of approximately $19 billion. The OIG conducted
                                                                    OIG agrees that detecting embezzlement is important;
a performance audit to determine if OLMS had: evaluated
                                                                    however, OLMS’s current measure only measures the
the effectiveness of CAP and its impact on safeguarding
                                                                    percentage of compliance audits that results in a criminal
union assets; had selected unions for audit using the most
                                                                    case being opened while ignoring any other benefits of
effective strategies; and had ensured that unions corrected
                                                                    the CAP. OLMS also stated its belief that developing a
violations of LMRDA.
                                                                    process that verifies unions’ correct financial controls
                                                                    over record-keeping, and subsequently conducting
The audit determined that OLMS could do more to improve
                                                                    onsite reviews to verify corrected controls were in place,
CAP’s effectiveness in verifying LMRDA compliance. We
                                                                    would be an imprudent use of its resources. The OIG is
found that OLMS did not fully: evaluate CAP’s effectiveness
                                                                    not recommending OLMS revisit all unions with record-
and its impact on safeguarding union fund assets; could
                                                                    keeping violations. Rather, we believe that OLMS should
not demonstrate that it was selecting unions for audit
                                                                    put a risk-based process in place that will provide OLMS
which had the greatest risk for LMRDA violations that
                                                                    more assurances that unions took actions to address the
would affect the safeguarding of union assets; and that
                                                                    problems. (Report No. 09-12-001-04-421, September 13,
it did not ensure that unions corrected financial control
                                                                    2012)
weaknesses that allowed record-keeping violations.

The OIG made three recommendations to OLMS to:
(1) develop performance measures that evaluate the


36     Semiannual Report to Congress: April 1– September 30, 2012
                               Worker and Retiree Benefit Programs


                 Disadvantaged Business Enterprises
    The Disadvantaged Business Enterprises (DBE) program is an effort to increase the participation of minority-owned
  small businesses in all Federal aid and state transportation facility contracts and procurement.



Settlement of False Claims Act Case Against Two Companies for Defrauding $22 Million
in DBE Contracts

On April 4, 2012, the U.S. Attorney’s Office for the Southern District of New York settled a civil complaint under the False
Claims Act against Judlau Contracting, Inc., Dragados USA, Inc., and Dragados/Judlau, a Joint Venture. As part of the
settlement, the defendants will pay $6.5 million in restitution to the U.S. Government and $1 million to the Metropolitan
Transportation Authority (MTA).

In an effort to circumvent U.S. Department of Transportation Federal regulations relating to DBE, the defendants
submitted monthly reports to the MTA that fraudulently represented the progress in meeting their participation
goal with regard to DBE contracts. Specifically, they submitted false payroll certifications in violation of the
Davis-Bacon Act, stating that they had paid almost $17 million to their respective DBEs, when in reality only
$5 million had been paid for work performed by the DBEs. An internal audit also revealed that the defendants paid three
of the DBEs to act as fronts or “pass through companies” while the work was actually being performed by a general (non-
DBE) contractor.

United States v. Dragados/Judlau, a Joint Venture, Judlau Contracting, Inc., and Dragados USA, Inc. (S.D. New York)




                                                                  Semiannual Report to Congress: April 1– September 30, 2012   37
Labor Racketeering




             Semiannual Report to Congress, Volume 62
                                          Labor Racketeering
    The OIG at DOL has a unique programmatic responsibility to investigate labor racketeering and/or organized crime
  influence involving unions, employee benefit plans, and labor-management relations. The Inspector General Act of
  1978 transferred responsibility for labor racketeering and organized crime–related investigations from the Department
  to the OIG. In doing so, Congress recognized the need to place the labor racketeering investigative function in an
  independent law enforcement office free from political interference and competing priorities. Since then, OIG special
  agents, working in association with the Department of Justice’s Organized Crime and Gang Section, as well as various
  U.S. Attorneys’ Offices, have conducted criminal investigations to combat labor racketeering in all its forms.



Labor racketeering relates to the infiltration, exploitation, and/or control of a union, employee benefit plan, employer
entity, or workforce. It is carried out through illegal, violent, or fraudulent means for profit or personal benefit.

Labor racketeering impacts American workers, employers, and the public through reduced wages and benefits, diminished
competitive business opportunities, and increased costs for goods and services.

The OIG is committed to safeguarding American workers from being victimized through labor racketeering and/or organized
crime schemes. The following investigations are illustrative of our work in helping to eradicate both traditional and
nontraditional labor racketeering in the nation’s labor unions, employee benefit plans, and workplaces.

Labor racketeering and organized crime groups have been involved in benefit plan fraud, violence against union members,
embezzlement, and extortion. Our investigations continue to identify complex financial and investment schemes used to
defraud benefit fund assets, resulting in millions of dollars in losses to plan participants. The schemes include embezzlement
or other sophisticated methods, such as fraudulent loans or excessive fees paid to corrupt union and benefit plan service
providers. OIG investigations have demonstrated that abuses involving service providers are particularly egregious due
to their potential for large dollar losses and because the schemes often affect several plans simultaneously. Thus, benefit
plan service providers, such as accountants, attorneys, contract administrators, and medical providers, as well as corrupt
union officials, plan representatives, and trustees, continue to be a strong focus of OIG investigations.




40     Semiannual Report to Congress: April 1– September 30, 2012
                                                Labor Racketeering

                              Benefit Plan Investigations
    The OIG is responsible for combating corruption involving funds in union-sponsored employee benefit plans. Pension
  and health and welfare benefit plans comprise hundreds of billions of dollars in assets. Our investigations have shown
  that assets in such plans remain vulnerable to labor racketeering schemes and/or organized crime influence. Benefit
  plan service providers, including accountants, actuaries, attorneys, contract administrators, investment advisors,
  insurance brokers, and medical providers, as well as corrupt union officials, plan representatives, and trustees, continue
  to be a strong focus of OIG investigations.



Former Sandhogs’ Benefit Funds                                    New York Union Leaders Sentenced
Administrator Sentenced for Embezzling                            for Racketeering, Extortion, Money
$40 Million from Construction Workers’                            Laundering, and Witness Tampering
Union Funds
                                                                  Anthony Fazio, Sr., Anthony Fazio, Jr., and John Fazio,
Melissa King, a former administrator for the Laborers’            Jr., former officials of Local 348 of the United Food and
International Union of North America Local 147 (Sandhogs          Commercial Workers Union (UFCW), were sentenced
Union) Benefit Funds, was sentenced on June 21, 2012, to          on September 13, 2012 to more than 12 years, 5 years,
six years in prison and three years’ supervised release. King     and 11 years in prison, respectively, in connection with
previously pled guilty to embezzlement from the Employee          racketeering, extortion, money laundering, and witness
Retirement Income Security Act employee benefit plans             tampering charges. In addition to the prison terms, the
and tax evasion.                                                  defendants were sentenced to three years of supervised
                                                                  release each, and ordered to pay a combined $3.1 million
Between 2002 and 2008, King embezzled more than                   fine. All three defendants will also be held joint and
$40 million by transferring large sums of money out of            severally liable for $2.5 million in restitution and forfeiture.
the Local 147 Benefit Funds’ bank accounts into a King            Fazio, Sr., was also previously found guilty of Racketeer
Care, LLC, account under her control. She then used the           Influenced and Corrupt Organizations Act Conspiracy
embezzled funds to finance her lifestyle, spending more           (RICO) charges.
than $7 million on personal purchases, $5.5 million to
buy and maintain horses, $1 million for fine and antique          Anthony Fazio, Sr., was the former president of the
jewelry, $300,000 for luxury automobiles, and $99,000 for         UFCW Local 348. For the last 35 years, the defendants
private jet travel, among other charges.                          have held various leadership positions in Local 348. Since
                                                                  1989, the defendants used their leadership positions
This was a joint investigation with Employee Benefits             to collect unlawful payments from various employers
Security Administration (EBSA) and Internal Revenue               whose employees had been unionized by the UFCW. The
Service (IRS). United States v. Melissa King (S.D. New York)      defendants utilized the threat of possible labor disruptions
                                                                  to extort annual or biannual cash payments from
                                                                  approximately 12 employers and from an administrator
                                                                  who handles and processes medical reimbursement claims
                                                                  on behalf of Local 348’s Health and Welfare Benefit Funds.

                                                                   Semiannual Report to Congress: April 1– September 30, 2012   41
                                                    Labor Racketeering

At least one employer was extorted for approximately                 This was a joint investigation with FBI, U.S. Department
$25,000 per year, and the fund administrator was extorted            of Health and Human Services – OIG, and U.S. Railroad
for as much as $5,000 every month.                                   Retirement Board – OIG. United States v. Jaswinder
                                                                     Chhibber (N.D. Illinois)
In addition to demanding extortionate and unlawful labor
payments from employers unionized by the UFCW, Fazio,                Two Men Plead Guilty for Role in
Sr., and John Fazio, Jr., engaged in a money-laundering              Defrauding Recovery Act-funded
scheme to steal funds directly from Local 348 and its
                                                                     Disadvantaged Business Enterprises
affiliated Benefit Funds. Fazio, Sr., and John Fazio, Jr., also
                                                                     Contracts
devised a scheme whereby Local 348 was billed using
fraudulent invoices for non-existent goods and services.
                                                                     Michael Paletta, owner of Crossboro Contracting Company,
The Local 348 funds used to pay those fake invoices were
                                                                     and Richard Schultz, a former project manager for
subsequently laundered into cash and siphoned back to
                                                                     Nationwide Construction, pled guilty on September 11,
Fazio, Sr., and his nephew John Fazio, Jr.
                                                                     2012, and July 31, 2012, respectively, to conspiracy to
                                                                     commit mail and wire fraud. Paletta was also ordered to
This was a joint investigation with FBI and New York City
                                                                     pay more than $355,000 in civil penalties.
Police Department. United States v. Anthony Fazio, Sr.,
United States v. Anthony Fazio, Jr., and United States v.
                                                                     Paletta and Schultz conspired with the owner of MS
John Fazio, Jr. (S.D. New York)
                                                                     Construction, a disadvantaged business enterprise and
                                                                     holder of collective bargaining agreements with several
Chicago Physician Sentenced for Falsely                              construction trade local unions, to use MS Construction to
Billing Health Care Companies and                                    obtain American Recovery and Reinvestment Act-funded
Medicare                                                             contracts, while other companies actually performed the
                                                                     work. The fraud scheme resulted in false certified payrolls
Dr. Jaswinder Chhibber, a Chicago physician, was sentenced           and false documents remitted to the local unions. A review
on July 11, 2012, to two and a half years in prison and one          of remittance reports also revealed that out of six projects,
year of supervised release, and assessed a $15,000 fine              only one was reported to the union benefit funds.
for falsely billing health care companies, union sponsored
benefit plans, and Medicare.                                         This was a joint investigation with Department of
                                                                     Transportation – OIG, Port Authority of NYC, and New
From approximately 2005 to 2010, Chhibber ordered                    York City – Department of Investigations. United States v.
unnecessary medical tests, falsified patients’ medical               Richard Schultz (S.D. New York)
records, and used false diagnosis codes on insurance
claims for at least five patients, including two undercover
Federal agents who posed as patients. He administered
echocardiograms, electrocardiograms, carotid doppler
examinations, abdominal ultrasounds, and pulmonary
function tests for an unusually high percentage of his
patients, including members of various union-sponsored
health care funds.



42      Semiannual Report to Congress: April 1– September 30, 2012
                                               Labor Racketeering

           Internal Union Corruption Investigations
    Our internal union corruption investigations include officers who abuse their positions of authority in labor
  organizations to embezzle money from union and member benefit plan accounts, and who defraud hardworking
  members of their right to honest services. Investigations in this area also focus on situations in which organized
  crime groups control or influence a labor organization — frequently to influence an industry for corrupt purposes or
  to operate traditional vice schemes. The following are examples of our work in this area:



Pennsylvania Union President Sentenced                         Ohio County Commissioner Sentenced for
for Embezzling Over $250,000 from                              Using Public Position for Personal Gain
Benefit Plans and Union Funds	
                                                               Jimmy Dimora, a former Cuyahoga county commissioner in
Ernest Milewski, a former union president, was                 Ohio, was sentenced on July 31, 2012, to 28 years in prison
sentenced on May 1, 2012, to 18 months in prison,              and ordered to pay restitution in the amount of $98,266 for
3 years of supervised release, and ordered to pay more         his role in multiple crimes, including racketeering, bribery,
than $257,000 in restitution for embezzling from labor         and conspiracy. The investigation stemmed from various
union assets and from a health care benefit program.           illegal schemes, including one involving Robert Rybak, a
                                                               former business manager of the Journeymen Plumbers
From 1996 to May 2008, Milewski served as president            Union Local 55 who was sentenced to more than two years
of the United Food and Commercial Workers (UFCW)               in prison for his role in the scheme.
Northeastern District Council (NEDC) located in Wilkes-
Barre, Pennsylvania. During this same time period, by          Dimora used his public position to facilitate illegal acts on
virtue of his position, he was also president of the union’s   behalf of Rybak, Rybak’s wife, and another Rybak family
NEDC’s Health and Welfare Fund. From 2005 to 2008,             member. Dimora received free plumbing at his residence
Milewski stole more than $221,000 from the UFCW                in exchange for securing two county commissioner votes
general fund and $45,000 from the Health and Welfare           to approve a $5,000 salary increase for Rybak’s wife,
Fund. Milewski executed this scheme by writing union           Linda, who was employed with Cuyahoga County’s Human
and benefit fund checks directly to himself, and then          Resources Department. She has since been fired from
attempted to conceal the thefts by making it appear as if      her position. In addition, Rybak provided Dimora with
the disbursements were made to legitimate union/fund           other reduced-cost home improvements, meals, and
payees. Milewski also executed this scheme by receiving        entertainment, as well as political donations.
unauthorized expense reimbursements and double-billing
the UFCW and the NEDC.                                         This was a joint investigation with FBI, OLMS, and IRS.
                                                               United States v. Jimmy Dimora, et al. (N.D. Ohio)
This was a joint investigation with Office of Labor-
Management Standards (OLMS) and EBSA. United States
v. Ernest Milewski (M.D. Pennsylvania)



                                                                Semiannual Report to Congress: April 1– September 30, 2012   43
                                                    Labor Racketeering

Former Company President Pleads Guilty                               union book is proof of a worker’s admission into, and
to 13-count Indictment                                               membership in, a union, and is the property of the issuing
                                                                     union. On August 1, 2011, Kearney, while employed as
Michael Forlani, a former president of Doan Pyramid and              the business manager for Local 45, met an individual
other companies in Ohio, pled guilty on August 30, 2012,             who was a representative of a New Jersey construction
to conspiracy to commit bribery relating to programs                 company. During a recorded meeting, Kearney was asked
receiving Federal funds; Hobbs Act conspiracy; and RICO              about using non-union ironworkers at an upcoming
conspiracy, among other charges. The charges stemmed                 construction project in Hudson County and said that he
from several government-funded projects, including a                 would be willing to buy union books for his employees.
$125 million U.S. Department of Veterans Affairs (VA)                During this meeting, Kearney received a $3,000 “good will”
project for the construction of a 2,080-space parking                payment for the upcoming Hudson County project as the
garage, an office building, and a 122-bed dwelling for               New Jersey Construction Company representative sought
homeless veterans near the Louis Stokes Cleveland VA                 to use non-union ironworkers. Subsequently, Kearney
Medical Center in Ohio.                                              received $10,000 in cash and two $728 money orders to
                                                                     cover initiation fees and dues for the two union books.
Forlani sought and obtained assistance from Jimmy
Dimora, a former Ohio county commissioner — who                      This was a joint investigation with the FBI and EBSA. United
was sentenced to 28 years in prison for his role in the              States v. James Kearney (D. New Jersey)
scheme — to support Robert Peto’s appointment as
executive secretary/treasurer of the Ohio and Vicinity
Regional Council of Carpenters to the Cuyahoga County
Port Authority board. Peto’s appointment to the board
ensured that Forlani would obtain financing for the project.
To gain Dimora’s support, Forlani’s companies installed,
at no cost, an outdoor television and indoor audio/visual
system at Dimora’s house. As a result, Dimora voted to
appoint Peto to the board in December of 2004 and again
in January 2008.

This was a joint investigation with FBI and EBSA. United
States v. Michael Forlani (N.D. Ohio)


Labor Union Officer Pleads Guilty to
Taking Bribes

James Kearney, a former business manager of Ironworkers
Local 45, pled guilty on July 11, 2012, to violating the Taft-
Hartley Act.

Kearney admitted that he demanded and received $10,000
from a contractor for the sale of two union books. A

44      Semiannual Report to Congress: April 1– September 30, 2012
                                               Labor Racketeering


                    Labor-Management Investigations
    Labor-management relations cases involve corrupt relationships between management and union officials. Typical
  labor-management cases range from collusion between representatives of management and corrupt union officials,
  to the use of the threat of “labor problems” to extort money or other benefits from employers.



Two Construction Company Employees                             This was a joint investigation with FBI, General Services
Plead Guilty in $56 Million Over-Billing                       Administration – OIG, Port Authority – OIG, and New York
                                                               City – Department of Investigations. United States v. John
Scheme
                                                               Hyers and United States v. James Abadie (E.D. New York)

James Abadie, a former principal-in-charge, and John
Hyers, a former director of operations for the New York
office of a construction company, pled guilty on April 24,
2012, and May 3, 2012, respectively, to conspiracy to
commit mail and wire fraud.

From 1999 to 2009, Abadie and Hyers played major
roles in a scheme to fraudulently bill public and private
construction projects for hours that were not worked by
labor foremen from the Local 79 Mason Tenders’ District
Council of Greater New York. The defendants systematically
added one to two hours of unworked overtime per day,
sick day absences, major holidays, and weeks of vacation
to time sheets for labor foremen. The scheme resulted in
more than $56 million in fraudulent wage charges billed
to public and private construction projects.

As a result of this investigation, the defendants entered
into a deferred prosecution agreement, admitting to
overbilling its public and private construction projects and
misrepresenting work performed by minority businesses.
The agreement requires the defendants to pay up to
$56 million in penalties to the Federal government and
restitution to victims, and to institute comprehensive
corporate reforms designed to eliminate future problems
and enforce best industry practices.




                                                                Semiannual Report to Congress: April 1– September 30, 2012   45
        Labor Racketeering




Departmental Management




                             Semiannual Report to Congress, Volume 62
                                       Departmental Management
                                            Departmental Management

Deficiencies Persist in the Department’s                            Correcting deficiencies in a timely manner is an integral
IT Security Program                                                 part of management accountability. In FY 2012, the OIG
                                                                    also performed testing to verify the remediation of prior-
DOL systems contain vital, sensitive information that               year IT security recommendations. We found that the
is central to both its mission and to the effective                 Department had continued making progress in closing
administration of its programs. These systems are used              those recommendations, as 90 percent of the prior-year IT
to determine and house the nation’s leading economic                security recommendations tested had been implemented
indicators, such as the unemployment rate and the                   successfully. (Report No. 23-12-024-07-001, September
Consumer Price Index, and they maintain critical data               28, 2012; Report No. 23-12-012-03-370, September
related to: enforcement actions; worker safety; health,             28, 2012;Report No. 23-12-013-06-001, September
pension, and welfare benefits; job training services; and           28, 2012;Report No. 23-12-017-10-001, September 28,
other worker benefits.                                              2012;Report No. 23-12-015-13-001, September 28, 2012)


As part of its FY 2012 Federal Information Security
Management Act work completed by the end of this
reporting period, the OIG identified three deficiencies
in the Department-wide Information Security Program.
In the areas of: identification and authorization, we
found that Personal Identity Verification (PIV) card log-
on to agency information systems had not been fully
implemented across the Department; computer security,
we found incidents were not always timely reported;
and agency contingency plans, we found the plans had
not been aggregated to prioritize recovery. We also
found that system recovery was not performed during
the Department’s testing exercise for disaster recovery.
Those identified deficiencies increased the risks to
the confidentiality, integrity, and availability of DOL’s
information.

We recommended that the Department’s Chief Information
Officer: continue to plan and implement PIV card log-
on capability in order to comply with Department of
Homeland Security Presidential Directive-12 requirements;
provide periodic reminders and/or additional training
on DOL policies and procedures for incident response;
and improve disaster recovery planning efforts. The
Department concurred or partially concurred with our
findings, but stated that compensating controls, such as
firewalls and password management, mitigated some of
the potential risk related to the identified deficiencies.


48     Semiannual Report to Congress: April 1– September 30, 2012
                                        Departmental Management


                                             Single Audits
    Office of Management and Budget (OMB) Circular A-133 provides audit requirements for state and local governments,
  colleges and universities, and nonprofit organizations receiving Federal awards. Under A-133, covered entities that
  expend $500,000 or more a year in Federal awards are required to obtain an annual organization-wide audit that
  includes the auditor’s opinion on the entity’s financial statements and compliance with Federal award requirements.
  Non-Federal auditors, such as public accounting firms and state auditors, conduct these single audits. The OIG reviews
  the resulting audit reports for findings and questioned costs related to DOL awards, and to ensure that the reports
  comply with the requirements of A-133.



Single Audits Identify Material Weaknesses                      The purpose of the reviews was to determine whether:
and Significant Deficiencies in 69 of 129                       (1) the audit was conducted in accordance with applicable
                                                                standards and met the single audit requirements, (2) any
Reports
                                                                follow-up audit work was needed, and (3) there were any
                                                                issues that may require management’s attention. In two
We reviewed 129 single audit reports this period, covering
                                                                QCRs, we determined that the audit work performed was
DOL expenditures of approximately $115 billion. These
                                                                acceptable and met single audit and A-133 requirements.
expenditures included approximately $18 billion related
                                                                No follow-up work was required and there were no issues
to Recovery Act funding. The non-Federal auditors issued
                                                                that required management’s attention. For the remaining
20 qualified or adverse opinions on awardees’ compliance
                                                                QCR, the single audit had to be re-issued due to technical
with Federal grant requirements, their financial
                                                                reporting deficiencies we identified.
statements, or both. In particular, the auditors identified
203 findings as material weaknesses or significant
deficiencies and approximately $22 million in questioned
costs in 69 of the 129 reports reviewed. Those findings
indicated serious concerns about the auditees’ abilities
to manage DOL funds and comply with the requirements
of major grant programs. We reported the 203 findings
and 217 related recommendations to DOL management
for corrective action.

Recipients expending more than $50 million a year in
Federal awards are assigned a cognizant Federal agency
for audit, and the cognizant agency is responsible for
conducting or obtaining quality control reviews of
selected A-133 audits. In FY 2012, DOL was the cognizant
agency for 16 recipients. During this reporting period,
we conducted three quality control reviews (QCR) of
auditors’ reports and supporting audit documentation.


                                                                 Semiannual Report to Congress: April 1– September 30, 2012   49
                                            Departmental Management


                      Employee Integrity Investigations
    The OIG is charged with the responsibility for conducting investigations into possible misconduct or criminal activities
  involving DOL employees or individuals providing services to the Department. The following cases are illustrative of
  our efforts in this area:



Former Mine Safety and Health                                       Former Occupational Safety and Health
Administration Inspector Pleads Guilty                              Administration Inspector Sentenced
to Falsifying Mine Inspection Reports                               for Unauthorized Use of Government
                                                                    Property
Matthew Blake, a former metal/non-metal Federal (MSHA)
inspector, pled guilty on August 24, 2012, to six counts            Joseph Schwarz, a former Occupational Safety and Health
of making false statements on official mine inspection              Administration (OSHA) safety specialist and desk officer,
documents and reports relative to surface mining                    was sentenced on April 5, 2012, to one year of probation
operations in Eastern District of Tennessee.                        and ordered to pay a fine of $2,000 after pleading guilty
                                                                    to unauthorized use of government property. He was
Between August and October 2011, Blake falsified                    resigned from Federal service effective March 31, 2012.
inspection reports and failed to properly inspect six
different mines in the Eastern District of Tennessee. Our           In July 2011, Schwarz attempted to extort money from
investigation revealed that although Blake had never                an Ohio strip club by threatening to expose the club’s
visited these mines, inspection records that he submitted           safety violations if he was not paid a sum of $10,000.
to MSHA showed that he had reviewed mine operations,                Schwartz used his DOL-issued laptop and cell phone to
inspected equipment, and collected dust and noise                   send emails under an alias in conjunction with the failed
samples. He faces up to five years in prison, a fine up to          extortion attempt. This was a joint investigation with FBI.
$250,000, and supervised release for each count. United             State of Ohio v. Joseph Schwarz (Cuyahoga County Court
States v. Mathew Blake (E.D. Tennessee)                             of Common Pleas)




50     Semiannual Report to Congress: April 1– September 30, 2012
Legislative Recommendations




                 Semiannual Report to Congress, Volume 62
                            Legislative Recommendations
    The Inspector General Act requires the OIG to review existing or proposed legislation and regulations, and make
  recommendations in the Semiannual Report concerning their impact on the economy and efficiency of the Department’s
  programs, and on the prevention of fraud and abuse. The OIG’s legislative recommendations have remained markedly
  unchanged over the last several semiannual reports, and the OIG continues to believe that the following legislative
  actions are necessary to increase efficiency and protect the Department’s programs.



Allow DOL Access to Wage Records                                     • Expand the authority of the Employee Benefits
                                                                       Security Administration (EBSA) to correct substandard
To reduce overpayments in employee benefit programs,                   benefit plan audits and ensure that auditors with
including Unemployment Insurance (UI), Federal                         poor records do not perform additional plan audits.
Employees’ Compensation Act (FECA), and Disaster                       Changes should include providing EBSA with greater
Unemployment Assistance, the Department and the OIG                    enforcement authority over registration, suspension,
need legislative authority to easily and expeditiously access          and debarment, and the ability to levy civil penalties
state UI wage records, Social Security Administration                  against employee benefit plan auditors. The ability
(SSA) wage records, and employment information from                    to correct substandard audits and take action against
the National Directory of New Hires (NDNH), which is                   auditors is important because benefit plan audits help
maintained by the Department of Health and Human                       protect participants and beneficiaries by ensuring
Services.                                                              the proper value of plan assets and computation of
                                                                       benefits.
By cross-matching UI claims against NDNH data, states
can better detect overpayments to UI claimants who have              • Repeal ERISA’s limited-scope audit exemption. This
gone back to work but who continue to collect UI benefits.             provision excludes pension plan assets invested in
However, the law (42 U.S.C. 653 (i)) does not permit DOL or            financial institutions, such as banks and savings and
the OIG access to the NDNH. Moreover, access to SSA and                loans from audits of employee benefit plans. The
UI data would allow the Department to measure the long-                limited-scope audit prevents independent public
term impact of employment and training services on job                 accountants who are auditing pension plans from
retention and earnings. Outcome information of this type               rendering an opinion on the plans’ financial statements
for program participants is otherwise difficult to obtain.             in accordance with professional auditing standards.
                                                                       These “no opinion” audits provide no substantive
Amend Pension Protection Laws                                          assurance of asset integrity to plan participants or
                                                                       the Department.
Legislative changes to the Employee Retirement Income
Security Act (ERISA) and criminal penalties for ERISA                • Require direct reporting of ERISA violations to DOL.
violations would enhance the protection of assets in                   Under current law, a pension plan auditor who finds
pension plans. To this end, the OIG recommends the                     a potential ERISA violation is responsible for reporting
following:                                                             it to the plan administrator, but not directly to DOL.
                                                                       To ensure that improprieties are addressed, we

52      Semiannual Report to Congress: April 1– September 30, 2012
                                       Legislative Recommendations

    recommend that plan administrators or auditors be           Enhance the Workforce Investment Act
    required to report potential ERISA violations directly      Program Through Reauthorization
    to DOL. This would ensure the timely reporting of
    violations and would more actively involve auditors         The reauthorization of the Workforce Investment Act
    in safeguarding pension assets, providing a first line of   (WIA) provides an opportunity to revise WIA programs to
    defense against the abuse of workers’ pension plans.        better achieve their goals. Based on our audit work, the
                                                                OIG recommends the following:
 • Strengthen criminal penalties in Title 18 of the United
   States Code. Three sections of U.S.C. Title 18 serve as      • Improve state and local reporting of WIA obligations.
   the primary criminal enforcement tools for protecting          A disagreement between ETA and the states about the
   pension plans covered by ERISA. Embezzlement or                level of funds available to states drew attention to the
   theft from employee pension and welfare plans is               way WIA obligations and expenditures are reported.
   prohibited by Section 664; making false statements in          The OIG’s prior work in nine states and Puerto Rico
   documents required by ERISA is prohibited by Section           showed that obligations provide a more useful measure
   1027; and giving or accepting bribes related to the            for assessing states’ WIA funding status if obligations
   operation of ERISA-covered plans is prohibited by              accurately reflect legally committed funds and are
   Section 1954. Sections 664 and 1027 subject violators          consistently reported.
   to up to five years’ imprisonment, while Section 1954
   calls for up to three years’ imprisonment. We believe        • Modify WIA to encourage the participation of training
   the maximum penalty should be raised to 10 years for           providers. WIA participants use individual training
   all three violations, which would serve as a greater           accounts to obtain services from approved eligible
   deterrent and further protect employee pension                 training providers. However, performance reporting
   plans.                                                         and eligibility requirements for training providers have
                                                                  made some potential providers unwilling to serve WIA
Provide Authority to Ensure the Integrity                         participants.
of the Foreign Labor Certification Process
                                                                • Support amendments to resolve uncertainty about
If DOL is to have a meaningful role in the H-1B specialty         the release of WIA participants’ personally identifying
occupations foreign labor certification process, it must          information for WIA reporting purposes. Some training
have the statutory authority to ensure the integrity              providers are hesitant to disclose participant data to
of that process, including the ability to verify the              states for fear of violating the Family Education Rights
accuracy of information provided on labor condition               and Privacy Act.
applications. Currently, DOL is statutorily required to
certify such applications unless it determines them to be       • Strengthen incumbent worker guidance to states.
“incomplete or obviously inaccurate.” Our concern with            Currently, no Federal criteria define how long an
the Department’s limited ability to ensure the integrity          employer must be in business or an employee must
of the certification process is heightened by the results         be employed to qualify as an incumbent worker, and
of OIG analysis and investigations that show the program          no Federal definition of “eligible individual” exists for
is susceptible to significant fraud and abuse, particularly       incumbent worker training. Consequently, a state could
by employers and attorneys.                                       decide that any employer or employee can qualify for
                                                                  a WIA-funded incumbent worker program.

                                                                 Semiannual Report to Congress: April 1– September 30, 2012   53
                                           Legislative Recommendations

Improve the Integrity of the FECA                                    Clarify MSHA’s Authority to Issue Verbal
Program                                                              Mine Closure Orders

The OIG believes reforms should be considered to improve             The Mine Safety and Health Act of 1977 (Mine Act) charges
the effectiveness and integrity of the FECA program in the           the Secretary of Labor with protecting the lives and health
following areas:                                                     of workers in coal and other mines. To that end, the Mine
• Statutory access to Social Security wage records                   Act contains provisions authorizing the Secretary to issue
     and the NDNH. Currently, the Department can only                mine closure orders. Specifically, Section 103(j) states that
     access Social Security wage information if the claimant         in the event of any accident occurring in a coal or other
     gives it permission to do so, and has no access to the          mine where rescue and recovery work is necessary, the
     NDNH. Granting the Department routine access to                 Secretary or an authorized representative of the Secretary
     these databases would aid in the detection of fraud             shall take whatever action he deems appropriate to protect
     committed by individuals receiving FECA wage loss               the life of any person. Under Section 103(k), the Act states
     compensation but failing to report income they have             that an authorized representative of the Secretary, when
     earned.                                                         present, may issue such orders as he deems appropriate to
                                                                     insure the safety of any person in the coal or other mine.
•    Benefit rates when claimants reach normal Federal or
     Social Security retirement age. Alternate views have            The primary purpose of the Mine Act is to give the
     arisen as to whether and how benefit rates should be            Secretary the authority to take appropriate action—
     adjusted when beneficiaries reach Federal or Social             including ordering a mine closure — to protect lives.
     Security retirement age. The benefit rate structure             As such, the OIG recommends a technical review of the
     for FECA should be reassessed to determine what an              existing language under Section 103(k) to ensure that
     appropriate benefit should be for those beneficiaries           MSHA’s long-standing and critically important authority to
     who remain on the FECA rolls into retirement. Careful           take whatever actions may be necessary, including issuing
     consideration is needed to ensure that the benefit              verbal mine closure orders, to protect miner health and
     rates ultimately established will have the desired effect       safety is clear and not vulnerable to challenge.
     while ensuring fairness to injured workers, especially
     those who have been determined to be permanently
     injured and thus unable to return to work.

•     Three-day waiting period. The FECA legislation
     provides for a three-day waiting period intended to
     discourage the filing of frivolous claims. As currently
     written, the legislation places the waiting period at the
     end of the 45-day continuation of pay period, thereby
     negating its purpose. Legislation passed in 2006 placed
     the waiting period immediately after an employment-
     related injury for postal employees. If the intent of the
     law is to have a true waiting period before applying
     for benefits, then it should likewise come immediately
     after an employment-related injury for all workers.


54      Semiannual Report to Congress: April 1– September 30, 2012
Appendices




        Semiannual Report to Congress, Volume 62
                                                                                               Appendices
Reporting requirements under the following acts:
                               Inspector General Act of 1978
GRG
REPORTING	          	   REQUIREMENT                                                          PAGE


Section 4(a)(2)	    	   Review of Legislation and Regulation 			                 	           52

Section 5(a)(1)	    	   Significant Problems, Abuses, and Deficiencies 		                     ALL

Section 5(a)(2)	 	      Recommendations with Respect to Significant
               	        Problems, Abuses, and Deficiencies 	                                 ALL

Section 5(a)(3)	    	   Prior Significant Recommendations on Which
               	        Corrective Action Has Not Been Completed 	       			                  76	

Section 5(a)(4) 	       Matters Referred to Prosecutive Authorities 	    	           	   	    77

Section 5(a)(5) and	    Summary of Instances Where Information Was Refused 			                NONE
Section 6(b)(2)		       									

Section 5(a)(6)		       List of Audit Reports 						                                         70

Section 5(a)(7)		       Summary of Significant Reports                                        ALL

Section 5(a)(8)		       Statistical Tables on Management Decisions on Questioned Costs       69

Section 5(a)(9)		       Statistical Tables on Management Decisions on Recommendations
			                     That Funds Be Put to Better Use                                      69

Section 5(a)(10)	       Summary of Each Audit Report over Six Months Old for
           		           Which No Management Decision Has Been Made                           76

Section 5(a)(11)	       Description and Explanation of Any Significant
			                     Revised Management Decision                	                         NONE

Section 5(a)(12)	       Information on Any Significant Management Decisions
			                     with Which the Inspector General Disagrees                           NONE

                           The Reports Consolidation Act of 2000

 Section 3(d)		         Top Management Challenges Facing the U.S. Department of Labor        57


 Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010

 Section 3(d)           Peer Review                                                          78

                     American Recovery and Reinvestment Act of 2010

 Section 1553(b)(2)(B)(iii) Whistleblower Reporting 			                                      79
                                                     Appendix

                          Top Management Challenges
The Top Management Challenges identified by the Office of the Inspector General (OIG) for the Department of Labor
(DOL) are discussed below.

2012 Top Management Challenges Facing the Department of Labor

For 2012, the OIG considers the following as the most serious management and performance challenges facing the
Department:

•	      Protecting the Safety and Health of Workers
•	      Protecting the Safety and Health of Miners
•	      Improving Performance Accountability of Workforce Investment Act Grants
•	      Ensuring the Effectiveness of the Job Corps Program
•	      Reducing Improper Payments
•	      Maintaining the Integrity of Foreign Labor Certification Programs
•	      Ensuring the Security of Employee Benefit Plan Assets
•	      Securing Information Technology Systems and Protecting Related Information Assets
•	      Ensuring the Effectiveness of Veterans’ Employment and Training Service Programs
•	      Improving Procurement Integrity

For each challenge, the OIG presents the challenge, the OIG’s assessment of the Department’s progress in addressing the
challenge, and what remains to be done. These top management challenges are intended to identify and help resolve
serious weaknesses in areas that involve substantial resources and provide critical services to the public.


CHALLENGE: Protecting the Safety and Health of Workers

OVERVIEW
The Occupational Safety and Health Administration (OSHA) was established by the Occupational Safety and Health
Act of 1970 (OSH Act). OSHA’s mission is to assure, so far as possible, that every working man and woman has safe and
healthy working conditions. OSHA ensures the safety and health of more than 130 million workers at over seven million
establishments by setting and enforcing workplace safety and health standards; providing training, outreach, and education;
and encouraging continuous improvement in workplace safety and health.

CHALLENGE FOR THE DEPARTMENT
With more than seven million entities under its oversight and Bureau of Labor Statistics’ preliminary data indicating
that 4,609 workers suffered fatal workplace injuries in 2011, OSHA continues to be challenged on how to best target its
resources to the highest-risk worksites nationwide and to measure the impact of its policies and programs and those of
the 27 states authorized by OSHA to operate their own safety and health programs. OSHA carries out its enforcement
responsibilities through a combination of self‐initiated and complaint investigations, but can reach only a fraction of the


                                                                  Semiannual Report to Congress: April 1– September 30, 2012   57
                                                             Appendix

entities it regulates. Consequently, OSHA must strive to target the most egregious and persistent violators and protect the
most vulnerable worker populations.

Recent OIG audits have found that the highest risk industries and worksites were not always targeted and inspected, and
OSHA lacked outcomes‐based performance metrics to measure and demonstrate the causal effect of its own Federal
programs on the safety and health of workers nationwide. Without such metrics, OSHA cannot determine the effectiveness
of either Federally‐operated or state‐run worker safety and health programs, and, as such, cannot ensure that its limited
resources are being used efficiently and with the greatest possible impact on worker safety and health.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
OSHA has established a workgroup with state representatives in order to develop and adopt effectiveness measures for
state-operated safety and health programs. Moreover, OSHA is working on establishing regular processes for evaluating the
success of its enforcement strategies in helping to achieve its desired outcomes. In this regard, the Department initiated
a multi‐year study of OSHA’s Site Specific Targeting (SST) program to assess the impact of the program interventions on
future employer compliance.

OSHA should continue its efforts to work with state representatives on implementing effectiveness measures for state-
operated safety and health programs. OSHA should also include the highest risk worksites in SST program targeting,
prioritize and complete inspections of the highest risk worksites, and continue with the study on the SST program which
is expected to conclude during FY 2013. Finally, OSHA needs to strengthen its oversight and increase the effectiveness of
its Management Accountability Program.


CHALLENGE: Protecting the Safety and Health of Miners

OVERVIEW
The Federal Mine Safety and Health Act of 1977, as amended by the Mine Improvement and New Emergency Response
Act of 2006 (MINER Act), charges the Mine Safety and Health Administration (MSHA) with protecting the health and safety
of more than 380,000 miners who work at over 14,100 mines nationwide.

CHALLENGE FOR THE DEPARTMENT
MSHA continues to be challenged to effectively manage its resources to meet statutory mine inspection requirements
while successfully accomplishing other essential functions to help ensure that every miner returns home safely at the end
of each day. Our audits have shown that MSHA remains challenged to maintain a cadre of experienced and properly trained
enforcement staff to meet its statutory enforcement obligations. This challenge will soon be exacerbated by retirements,
with more than 50 percent of MSHA’s enforcement personnel eligible to retire by 2014. MSHA also faces challenges in
establishing a successful accountability program, and to some degree, deficiencies continue to recur. In addition, as scientific
knowledge and mining practices change, MSHA must promote the development and use of new technologies and ensure
that its standards and regulations keep pace.




58     Semiannual Report to Congress: April 1– September 30, 2012
                                                      Appendix

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
MSHA has made some progress in addressing these challenges. MSHA continues to identify and hire mine inspector
candidates, within authorized personnel levels, through job announcements and employment screening events held in
various locations throughout the country. In addition, MSHA maintains a single-source web-based page in order to provide
potential mine inspector trainees with hiring information.

MSHA has initiated a “Rules to Live By” campaign which targets common mining deaths, recognized OSHA standards on
fall protections, and implemented pre-assessment conferences to allow resolution of citations and orders before litigation.
Additionally, MSHA’s rulemaking agenda includes new regulations for proximity detection systems for mobile machines in
underground mines and lowering miners’ exposure to coal mine dust.

MSHA has made multiple changes to its organizational and reporting structures and several revisions to policies and
procedures to improve its accountability program, but this remains a work in progress. MSHA must continue to develop
a succession plan in order to ensure that properly trained mine inspectors are ready to step in as retirements occur, fully
implement its accountability program, timely complete its rulemaking agenda, and encourage technological advances.
 
CHALLENGE: Improving Performance Accountability of Workforce Investment Act
Grants

OVERVIEW
In Fiscal Year (FY) 2012, the Department’s Employment and Training Administration (ETA) was appropriated $3.2 billion for
the Workforce Investment Act (WIA) Adult, Dislocated Worker, and Youth programs. WIA adult employment and training
services are provided through formula grants to states and territories or through competitive grants to service providers to
design and operate programs for disadvantaged, often unemployed persons. ETA also awards grants to states to provide
reemployment services and retraining assistance to individuals dislocated from their employment. Youth programs are
funded through grant awards that support program activities and services to prepare low‐income youth for academic and
employment success, including summer jobs.

CHALLENGE FOR THE DEPARTMENT
The Department is challenged in ensuring that the WIA grant programs are successful in training and placing workers
in suitable employment to reduce chronic unemployment, underemployment, and reliance on social payments by the
population it serves. Our audit work over several decades has documented the difficulties encountered by the Department
in obtaining quality employment and training providers; ensuring that performance expectations are clear to grantees and
sub-grantees; obtaining accurate and reliable data by which to measure and assess the success of grantees and states in
meeting the program’s goals; providing active oversight of the grant making and grant execution process; disseminating
proven strategies and programs for replication; and, most critically, ensuring that training provided by grantees leads to
placement in training‐related jobs paying a living wage.

For example, our audit in 2008 of the $271 million High Growth Job Training Initiative to help workers acquire necessary
skills for jobs in high growth industries such as health care and biotechnology disclosed that ETA awarded most of the
grants non-competitively, that grantee performance expectations were so unclear in many cases we could not determine

                                                                  Semiannual Report to Congress: April 1– September 30, 2012   59
                                                             Appendix

whether or not they met their goals and, where the agreements had more clarity, we determined that grantees did not
meet objectives with respect to: training and placement goals; product completion; product delivery and required tracking
of outcomes. The lack of clarity in grant proposals that were approved called into question the rigor of ETA’s review of
the proposals and the merit of ETA’s decision to award the grants, especially because ETA decided to award them non-
competitively. A 2011 OIG audit of the WIA Adult and Dislocated Worker program found that 37 percent of program
participants either did not obtain employment or their employment was unrelated to the training that they received. OIG
projected that the amount of funds paid for this training outcome totaled approximately $124 million. Our October 2012
audit of the $500 million Recovery Act Green Jobs program designed to train those most affected by the recession for jobs
in “green” industries found that the program had limited success because 47 percent of those served already had a job;
that only 38 percent of those trained were placed in jobs; and that, as of December 2011, only 16 percent of the collective
job retention goal had been met. We also found that almost half of the training provided consisted of 1-5 days of training,
that 92 percent of “credentials” received for participating in the program were merely certificates of completion, and that
there were significant disparities of participant job retention goals proposed by grantees and approved by ETA. A finding
common in all three audits, was the significant problem in obtaining accurate, reliable, and detailed performance data
from grantees, sometimes requiring us to reconstruct records in order to be able to make assessments as to what was
actually accomplished.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
ETA recently awarded 26 Workforce Innovation Fund grants with the goal of evaluating strategies for delivering services
more efficiently, achieving better outcomes, and facilitating cooperation across programs and funding streams. ETA has
indicated that it will capture promising practices and lessons learned and share them with the broader workforce system.
In addition to this type of program evaluation, ETA should continue to closely monitor the WIA grants and address the
disconnections between the training provided and the realities of the job market. To that end, ETA should consider using
Labor Market Information tools and provide technical assistance to grantees.

ETA has made design changes to the WIA Gold Standard Evaluation of the Adult and Dislocated Worker programs. ETA
expects to receive the first evaluation report (on implementation) during the Fall of 2013, the first impact report in 2015
and the final report in 2016. Through this evaluation, ETA intends to measure the net impact of specific interventions, such
as the incremental effects of the intensive and training services provided to adults and dislocated workers. The multi-year
WIA Gold Standard is funded on an annual basis and is contingent on the availability of appropriated funding.
ETA and the Department have identified the reauthorization of WIA as a legislative priority and have specified several
goals that the Department believes should be a focus of the reauthorization process. Among those goals is improving
accountability by updating the performance measures used by WIA programs.

To meet the increased demand for services and improve coordination with other service providers, ETA continues to work
with the Department of Health and Human Services to develop a strategy for addressing client needs in the One-Stop
Center setting. The regions are working with various Federal agencies to coordinate activities at the state level. Activities
include the coordination of training strategies to maximize employer skill needs and the facilitation of successful outcomes
from the TANF program.




60     Semiannual Report to Congress: April 1– September 30, 2012
                                                        Appendix

The OIG considers these initiatives to be of importance. In particular, we recommend that ETA give maximum priority to
the goal of evaluating strategies for delivering services more effectively and efficiently to address the many grant making
and program performance issues we have identified over the past several decades.


CHALLENGE: Ensuring the Effectiveness of the Job Corps Program

OVERVIEW
The Job Corps program provides residential and nonresidential education, training, and support services to approximately
60,000 disadvantaged, at-risk youths, ages 16-24, at 125 Job Corps centers nationwide. The goal of this $1.7 billion program
is to offer an intensive intervention to this targeted population as a means to help them turn their lives around and prevent
a life-time of unemployment, underemployment, dependence on social programs, or criminal behavior.

CHALLENGE FOR THE DEPARTMENT
The Department is challenged in providing a safe, residential and nonresidential education and training program which
results in outcomes that truly assist at-risk, disadvantaged youth in turning their lives around including: placement in
training-related employment, entrance into advanced vocational/apprenticeship training, entrance into higher education,
or enlistment in the military. Our audits have consistently documented the Department’s difficulty in ensuring the quality
of residential life, a critical component of the Job Corps intensive intervention experience. Specifically, our audits have
disclosed safety and health hazards and physical maintenance needs at various centers as well as, in some instances, a
lack of enforcement of disciplinary policies.

Our audits have also demonstrated the challenge faced by the Department in obtaining and documenting desired program
outcomes. Most centers are operated by contractors through performance‐based contracts with incentive fees and bonuses
which are tied directly to contractor performance. Absent strict oversight, there is a risk that contractors will overstate
performance results and maintain disruptive students on site. We have also documented problems with ETA’s reporting of
job training matches. A 2011 audit found that 3,226 of the 17,787 placements reported for the periods reviewed either did
not relate, or poorly related, to the vocational training received (e.g., students trained in office administration placed in fast
food restaurants) and another 1,569 students were placed in jobs that required little or no previous skills or experience,
such as parking lot attendants, janitors, and dishwashers.

We have also documented significant problems with centers being unable to ensure that funds are only being expended
on serving participants who qualify for the program, and centers being unable to ensure that major procurements include
proper competition and ensure best value to the program.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
The Department conducted on-site safety and health evaluations at 123 centers; trained center safety officers and staff; and
published several information notices and policy changes. To improve its reported performance data, Job Corps is updating
its Job Training Match Crosswalk to align with the revised DOL O*NET-Standard Occupational Classification database, which
characterizes all jobs in the U.S. labor market. OIG continues to recommend that Job Corps provide rigorous oversight of
contractors at all centers to: ensure they provide a safe environment that is conducive to learning; ensure that only those
who qualify for the program are served; improve the transparency and reliability of performance metrics and outcomes;
and ensure that center operators and other service providers comply with applicable procurement requirements.
                                                                     Semiannual Report to Congress: April 1– September 30, 2012   61
                                                             Appendix

CHALLENGE: Reducing Improper Payments

OVERVIEW
The Office of Management and Budget (OMB) has designated the Unemployment Insurance (UI) and Workforce Investment
Act (WIA) programs as being at risk of making significant improper payments. The Federal Employees Compensation Act
(FECA) program is also susceptible to improper payments. In total, for Fiscal Year (FY) 2011, the Department reported
improper payments totaling approximately $13.7 billion.

According to the U. S. Government Accountability Office, the UI program reported the fourth highest dollar amount of
improper payments of any Federal program in FY 2011. Over the past three fiscal years, payments to UI recipients have grown
to unprecedented levels, totaling about $389 billion. This rapid, large growth, especially in Federally-funded emergency
and additional benefits, has increased the risk of improper payments. Indeed, the UI improper payment rate has increased
from 11.2 percent in FY 2010 to 12.0 percent in FY 2011, and remains well above the target rate of 9.8 percent.

CHALLENGE FOR THE DEPARTMENT
Identifying and reducing the rate of improper payments in the UI program continues to be a challenge for the Department,
as evidenced by the increasing rate of improper payments in recent years. Our audits have found that the Department
lacked effective controls over the detection of improper payments for both the UI state and Federal programs, and that
the Department’s estimate of recoverable payments may be understated. In addition, OIG investigations continue to
uncover fraud committed by individual UI recipients who do not report or underreport earnings, as well as fraud related
to fictitious employer schemes.

The Department also remains challenged in identifying the full extent of improper payments in the WIA and FECA programs.
As highlighted in past OIG audits, the estimation method used for the FECA program does not appear to provide a reasonable
estimate of improper payments. Without this information, the Department cannot implement the appropriate corrective
actions that will reasonably assure taxpayers’ funds are adequately safeguarded. In addition, OIG investigations continue
to identify high amounts of FECA compensation and medical fraud, which has often greatly surpassed the Department’s
improper payments estimates. For the WIA program, we have noted that data are not readily available to allow the
Department to directly sample grant payments to develop a statistically valid estimate of improper payments.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
The Department continues to work with states to implement a number of strategies to improve prevention, detection and
recovery of UI improper payments. Among numerous other initiatives, the Department has launched a website that clearly
identifies each state’s estimated UI improper payment rate and payments over a 3-year period, and has undertaken the
“Improper Payment High Priority States” initiative to reduce the UI improper payment rate in those states with unacceptably
high levels over a prolonged period. However, the Department needs to employ cost benefit and return on investment
analyses to evaluate the impact of those improper payment reduction strategies. The Department can further improve
oversight of the states’ detection and prevention of UI overpayments by increasing the frequency of on-site reviews at State
Workforce Agencies. The Department must also ensure that California – the state with the largest amount of estimated UI
improper payments – has implemented the National Directory of New Hires (NDNH) by December 31, 2012. In addition,
the Department needs to continue pursuing legislation to allow States to use a percentage of recovered UI overpayments
to detect and deter benefit overpayments.
62     Semiannual Report to Congress: April 1– September 30, 2012
                                                     Appendix

With respect to improper payments in the FECA program, the Department stated that it is in the process of designing a
methodology for estimating the FECA improper payment rate. In the WIA program, the Department has attempted to
identify the full extent of improper payments by including estimates from other sources, but it should continue to consider
other sampling methods in order to provide a more complete estimate of improper payments. Further, the Department
needs to provide full disclosure in the Agency Financial Report regarding the limitations of the data used to estimate WIA
overpayments.


CHALLENGE: Maintaining the Integrity of Foreign Labor Certification Programs

OVERVIEW
The Department’s Foreign Labor Certification (FLC) programs are intended to provide U.S. employers access to foreign labor
in order to meet worker shortages – as long as U.S. workers are not adversely affected. The H‐1B visa specialty workers’
program requires that employers, who intend to employ foreign specialty occupation workers on a temporary basis, file
labor condition applications with the Department. The H-2A program allows agricultural employers, who anticipate a
shortage of domestic workers, the ability to bring nonimmigrant foreign workers to the U.S. to perform agricultural labor
or services of a temporary or seasonal nature. The H‐2B program establishes a means for U.S. nonagricultural employers
to bring foreign workers into the U.S. to meet temporary worker shortages.

CHALLENGE FOR THE DEPARTMENT
DOL is challenged to provide U.S. businesses access to foreign workers to meet their workforce needs while protecting the
jobs and wages of U.S. workers. Our audits have found that statutory limits on the Department’s authority, and uncertainty
regarding the process for including individuals or entities debarred on the government-wide excluded parties lists are some
of the issues that have negatively impacted the H-1B program. For the H‐2B program, the Department published a new
rule establishing a compliance-based format that emphasizes the review of documentation provided to ETA in advance of
its certification determination; this action addresses challenges related to the old attestation model established in 2008.
However, due to pending legal actions, the Department is temporarily enjoined from implementing or enforcing the revised
rule and continues to operate under the attestation model in which employers merely assert, but do not demonstrate,
that they have performed an adequate test of the U.S. labor market before hiring foreign workers in lieu of U.S. workers.

OIG investigations continue to uncover schemes carried out by immigration attorneys, labor brokers, and transnational
organized crime groups. Our investigations have repeatedly revealed that fraudulent applications filed with DOL on behalf
of fictitious companies, as well as schemes wherein fraudulent applications were filed using the names of legitimate
companies without the companies’ knowledge. Additionally, we continue to uncover complex schemes involving fraudulent
DOL FLC documents filed in conjunction with or in support of similarly falsified identification documents required by other
Federal and state organizations.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
To address the H‐1B challenge, the Department has entered into a contract with a third‐party vendor in order to have access
to a more comprehensive employer identification database and verification system. To improve the H-2B program, ETA
has issued two new final rules, one for determining prevailing wage rates and another which replaced the self-attestation
model with a compliance-based format. The effective date of the wage rule has been extended to March 27, 2013, because

                                                                  Semiannual Report to Congress: April 1– September 30, 2012   63
                                                             Appendix

of legislation which prevents the use of funds to implement, administer or enforce the rule. The new rule establishing
a compliance-based format emphasizes the review of documentation provided to ETA in advance of the certification
determination. However, due to pending legal actions, the Department is temporarily enjoined from implementing or
enforcing the revised rule. This matter is on appeal to the U.S. Court of Appeals for the Eleventh Circuit and the Department
expects a decision in the second quarter of FY 2013. The Department is also working on ways to include FLC suspensions
and debarments on the government‐wide excluded parties list, and made its first referral in July 2012.

The Department still needs to evaluate the results of its certification processes in order to assess their effectiveness. In
addition, the Department needs to enhance its monitoring of the H‐2B application process in order to ensure that employers
are fully complying with program requirements and intentions. DOL also needs to make adjustments in order to enhance
the integrity of its employer verification services by fully implementing its electronic employer verification controls over the
H‐1B program and the remaining FLC programs. Furthermore, DOL needs to continue assessing and applying its debarment
action and ensure debarments are reported to appropriate DOL personnel for inclusion in the government-wide exclusion
system. Finally, ETA needs to ensure State Workforce Agencies (SWAs) have implemented the methods for reviewing and
clearing job orders and making interstate referrals of U.S. workers as reported in their FY 2012 state grant plans.


CHALLENGE: Ensuring the Security of Employee Benefit Plan Assets

OVERVIEW
The mission of the Department’s Employee Benefits Security Administration (EBSA) is to protect the security of retirement,
health, and other private-sector employer-sponsored benefit plans for America’s workers, retirees, and their families. EBSA
is responsible for administering and enforcing the fiduciary, reporting, and disclosure provisions of Title I of the Employee
Retirement Income Security Act (ERISA). It has jurisdiction over an estimated 707,000 retirement plans, 2.3 million health
plans and a similar number of other welfare plans. These plans hold about $6.7 trillion in assets and cover approximately
141 million participants and beneficiaries.

CHALLENGE FOR THE DEPARTMENT
EBSA’s limited authority and resources present challenges to achieving its mission of administering and enforcing ERISA
requirements for an estimated 5.3 million employee benefit plans covering approximately 141 million participants and
beneficiaries. Chief among EBSA’s challenges over the past couple of decades has been the fact that millions in pension
assets held in otherwise regulated entities, such as banks, escape audit scrutiny because of limited scope audits authorized
under ERISA, which result in no opinion on the financial status of the plan by the independent public accountants that
conduct the limited review. These concerns were renewed and heightened by recent audit findings that as much as
$3.3 trillion in pension assets received these types of no opinion audits, providing no assurances to participants as to the
financial health of their plans.

EBSA is further challenged by the many changes that have taken place in the employee benefit plan community since
ERISA was enacted in 1974, such as the shift from defined benefit retirement plans to defined contribution retirement
plans, the large increase in the types and complexity of investment products available to pension plans, and the new health
care law. In addition, uncertainty about the effectiveness of EBSA enforcement programs on ERISA compliance makes it
difficult for EBSA to direct its limited resources effectively among its regional offices to the enforcement areas where they
would do the most good.
64     Semiannual Report to Congress: April 1– September 30, 2012
                                                       Appendix

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
As an initial step in developing performance metrics to measure the effectiveness of its enforcement program, EBSA
implemented a broad Sample Investigation Program (SIP) in FY 2011, which reviewed 259 randomly selected employee
benefit plans for compliance with ERISA. EBSA continued to review plans under the SIP in 2012 and will analyze results at
the end of the year and develop the first baseline compliance measure in FY 2013.

EBSA should complete its evaluation of the results of the Sample Investigation Program to determine what changes are
needed to improve enforcement program effectiveness. EBSA should also continue to work to obtain legislative changes
to address deficient benefit plan audits and to ensure that auditors with poor records do not perform any additional plan
audits. In addition, EBSA should renew its efforts to obtain additional authority over plan auditors, and to repeal the limited
scope audit exception.


CHALLENGE: Securing Information Technology Systems and Protecting Related
Information Assets

OVERVIEW
The Department’s Information Technology (IT) systems contain sensitive information that is central to its mission and to
the effective administration of its programs. DOL systems are used to analyze and house the nation’s leading economic
indicators, such as the unemployment rate and the Consumer Price Index. They also maintain critical data related to
enforcement actions, worker safety, health, pension, and welfare benefits, job training services, and other worker benefits.

CHALLENGE FOR THE DEPARTMENT
Safeguarding information assets is a continuing challenge for Federal agencies, including DOL. The Administration’s goal
of expanding the use of technology to create and maintain an open and transparent government, while safeguarding
systems and protecting sensitive information, has added to the challenge. Recent OIG audits have identified access controls,
background investigations, and oversight of third‐parties involved in operation and support of IT systems, as significant
deficiencies. In addition, we have identified major weaknesses in the process of sanitizing electronic media prior to it being
removed from DOL’s control and destroyed.

We have also identified issues with the timeliness of mitigating identified vulnerabilities. The Department implemented
a risk management program to prioritize corrective action plans. However, after years of planned implementation the
Department has not made measurable progress to move the program forward.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
The Department has made progress in establishing risk mitigation as a priority via its Risk Management program. The
Office of the Chief Information Officer (OCIO) established Priority Security Performance Metrics and began measuring
agency progress on achieving these metrics.

The Department has also begun an IT modernization program with the goal to create a 21st-century IT infrastructure. As
part of DOL’s IT modernization, program users will access their network accounts by logging on to their desktops and/or
laptop computers using their permanent DOL badge, also known as a Personal Identity Verification (PIV) card. The DOL-
issued PIV card is designed to enhance security, reduce identity fraud, and protect personal privacy.
                                                                    Semiannual Report to Congress: April 1– September 30, 2012   65
                                                             Appendix

The IT Modernization program includes consolidating the Department’s nine infrastructures in an effort to create a more
unified, robust, and scalable IT service organization. In addition, DOL has acquired an enterprise IT system monitoring tool
to assist in configuration management, vulnerability assessment, and accounting for the inventory of electronic devices
connecting to each IT system.

To improve upon identity management and security issues, DOL needs to continue to reduce its IT footprint by completing
its data center consolidation efforts and reducing the number of external connections. Furthermore, while the movement
of email to the cloud was delayed and is not scheduled until the Summer of 2013, the Department must take steps to
ensure the cloud is secure prior to implementation. A greater presence in IT system security is needed by the Executive
level; fully implementing DOL’s planned Risk Management Program will assist in that effort as Executives become integral
to the discussion and understanding of their IT security issues and setting mitigation priorities. To enhance security,
reduce identity fraud, and protect personal privacy, DOL also needs to ensure its PIV card workstation logon process is
fully implemented throughout the Department.


CHALLENGE: Ensuring the Effectiveness of Veterans’ Employment and Training Service
Programs

OVERVIEW
The Department’s Veterans’ Employment and Training Service (VETS) programs are intended to provide both veterans and
transitioning service members the resources and services necessary for them to succeed in the workforce by maximizing
their employment opportunities and protecting their employment rights. Under the Jobs for Veterans State Grant (JVSG)
program, VETS issues grants to State Workforce Agencies to assist veterans in obtaining and maintaining gainful employment.
These grants are issued with a special emphasis on providing intensive services to meet the employment needs of disabled
veterans. Another VETS program, the Transition Assistance Program (TAP), provides a three day training session in which
participants learn techniques for job searches, processes for career decision-making, conditions of the current occupational
and labor market, how to write a resume, and interview techniques.

CHALLENGE FOR THE DEPARTMENT
According to data published by the Bureau of Labor Statistics, the monthly unemployment rate for veterans has gone
down over the past year, declining from 8.1 percent in September 2011 to 6.7 percent in September 2012. However, many
veterans still cannot find meaningful work, and the Department remains challenged to provide the services these veterans
need to prepare themselves for the civilian job market. This is especially true for post-9/11 veterans, as the portion of
these veterans seeking work was 9.7 percent in September 2012, substantially above the 7.4 percent unemployment
rate for nonveterans. Moreover, the September 2012 unemployment rate for post-9/11 female veterans remained high
at 19.9 percent.

Our audits have found that JVSG staff needed to do a better job of accurately assessing the veterans’ needs and documenting
intensive service activities - particularly for homeless veterans with disabilities. We have also found that VETS did not use
measurable performance goals and outcomes to evaluate program effectiveness and lacked adequate contracting oversight
for TAP workshop services. These deficiencies undermined VETS’s ability to ensure that it was providing a high-quality
program which helps veterans successfully transition from military to civilian employment.


66     Semiannual Report to Congress: April 1– September 30, 2012
                                                      Appendix

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
In collaboration with the Department of Defense and the VA, VETS has instituted a new TAP Employment Workshop which
is scheduled to be completed in November 2012. VETS is a also collaborating with other cognizant agencies to explore
new data sharing possibilities that would allow standards and policy for monitoring TAP Employment Workshops, student
load, and outcome goals. VETS is also ensuring that the Disabled Veteran Outreach Program focuses on those veterans
who have the most significant barriers to employment by providing more intensive services.

VETS still needs to ensure that JVSG program funds are used effectively to provide services to veterans and disabled veterans
who have the most significant barriers to employment. Further, VETS needs to provide rigorous oversight over contractors,
grantees, and state agencies for all programs. VETS also needs to implement standard forms and policy for monitoring
TAP Employment Workshops, establish clear performance measures and outcome goals, and sign a new Memorandum of
Understanding with partner agencies to define each agency’s roles and responsibilities. In addition, VETS needs to ensure
that its staff complies with management controls for contract administration.


CHALLENGE: Improving Procurement Integrity

OVERVIEW
The Department contracts for many goods and services to assist in carrying out its mission. In Fiscal Year 2012, DOL awarded
an estimated 3,325 new contracts totaling about $360 million, and issued almost 6,000 modifications to existing contracts
totaling approximately $1.6 billion.

CHALLENGE FOR THE DEPARTMENT
Ensuring integrity in procurement activities is a continuing challenge for the Department. Until procurement and
programmatic responsibilities are properly separated and effective controls are put into place, DOL will continue to be
at risk for wasteful and abusive procurement practices. Our most recent audits and investigations of DOL’s procurement
activities identified the need for better control and monitoring of procurement activities delegated to program agencies.

The current control environment surrounding the Department’s procurement activities has introduced both financial and
operational risk to DOL. The lack of standard and updated operating procedures leaves the consistency and quality of DOL’s
procurement functions heavily dependent on the various program agencies with delegated procurement authority. OIG
audits have found that DOL could not produce documentation that it awarded some contracts based on the best value
to the government. Moreover, for some contract modifications reviewed, DOL could not produce documentation that it
issued contract modifications within the scope of work and terms of the initial contracts.

The issues described above, along with those in the Securing Information Technology Systems and Protecting Related
Information Assets challenge, highlight the need for DOL to appoint a Chief Acquisition Officer (CAO) whose primary
duty is acquisition management. DOL continues to be out of compliance with the Service Acquisition Reform Act of 2003
requirement that executive agencies appoint a CAO whose primary duty is acquisition management. The Assistant Secretary
for Administration and Management presently serves as DOL’s CAO, while retaining other significant non‐acquisition
responsibilities.



                                                                   Semiannual Report to Congress: April 1– September 30, 2012   67
                                                             Appendix

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
To ensure integrity in procurement activities, the Department has stepped up its efforts to ensure procurement staff receives
appropriate training. In addition, the Department has issued guidance to improve DOL’s overall procurement program that
included provisions which require contractors to inform the contracting officer of suspected procurement violations, and
require agencies and Contracting Officer’s Technical Representatives to certify that task orders are properly within the scope
of the contract and that there is no conflict of interest. The Department has also issued guidance addressing procurement
conflicts of interest and has provided training to DOL senior executive staff focusing on ethics and procurement integrity,
and lessons learned.

The Department needs to continue its development of standard and consistent internal controls, and compliance frameworks
for component agencies with procurement authority in order to ensure the consistency and quality of DOL’s procurement
functions. Furthermore, DOL needs to complete procurement reviews of all of its acquisition offices, update internal policies
and procedures in order to clarify the processes related to acquisition planning and administration of procurements, and
ensure all contracting officers and contracting officer representatives obtain necessary certifications. While DOL is taking
positive actions to improve procurement integrity, it has yet to appoint a Chief Acquisition Officer whose primary duty is
acquisition management.


Changes from Last Year

Changes to the Top Management Challenges from FY 2011 include the combining of “Safeguarding Unemployment
Insurance” and “Improving the Management of Workers’ Compensation Programs” into a single challenge entitled
“Reducing Improper Payments.” Also, “Protecting the Safety and Health of Miners” is presented as a separate challenge;
in prior years it was included within the “Protecting the Safety and Health of Workers” challenge.

Ensuring the successful development and implementation of major information management systems was previously
discussed in our FY 2011 Top Management Challenges. Traditional system developments are losing their importance
as the Department moves to cloud computing services for almost all its applications. As a result, we have removed the
information system development as a separate issue in the FY 2012 Top Management Challenges.




68     Semiannual Report to Congress: April 1– September 30, 2012
                                                                 Appendix

                        Funds Recommended
                                          for Better Use
                                                    Funds Put to a Better Use Agreed to by DOL 
                                                                                                                    Number              Dollar Value
                                                                                                                   of Reports            ($ millions) 
For which no management decision had been made as of the commencement of the reporting period                          3                     2,274.7 
Issued during the reporting period                                                                                     2                       297.0 
Subtotal                                                                                                               5                     2,571.7 
For which management decision was made during the reporting period:                                                                                   
    Dollar value of recommendations that were agreed to by management                                                 3                     2,274.7 
    Dollar value of recommendations that were not agreed to by management                                                                          0 
For which no management decision had been made as of the end of the reporting period                                   2                       297.0 
             
                                                  Funds Put to a Better Use Implemented by DOL 
                                                                                                                    Number              Dollar Value
                                                                                                                   of Reports            ($ millions) 
For which final action had not been taken as of the commencement of the reporting period                               4                         70.7 
For which management or appeal decisions were made during the reporting period                                         3                     2,274.7 
Subtotal                                                                                                               7                     2,345.4 
For which final action was taken during the reporting period:                                                                                         
    Dollar value of recommendations that were actually completed                                                      2                     2,155.9 
    Dollar value of recommendations that management has subsequently concluded should not or could not                                             0 
     be implemented or completed 
For which no final action had been taken by the end of the reporting period                                                                    189.5 
            
                                                  Questioned
                                                             Costs
                                                      Resolution Activity: Questioned Costs 
                                                                                                                    Number            Questioned 
                                                                                                                   of Reports            Costs 
                                                                                                                                      ($ millions) 
For which no management decision had been made as of the commencement of the reporting period                          25                       14.2 
(as adjusted) 
Issued during the reporting period                                                                                     26                       24.3 
Subtotal                                                                                                               51                       38.5 
For which a management decision was made during the reporting period:                                                                                
    Dollar value of disallowed costs                                                                                                            5.1 
    Dollar value of costs not disallowed                                                                                                        1.8 
For which no management decision had been made as of the end of the reporting period                                   34                       31.6 
For which no management decision had been made within six months of issuance                                           11                        7.7 
             
                                                        Closure Activity: Disallowed Costs 
                                                                                                                      Number           Disallowed 
                                                                                                                     of Reports           Costs 
                                                                                                                                       ($ millions) 
For which final action had not been taken as of the commencement of the reporting period (as adjusted)                     63                   34.9 
For which management or appeal decisions were made during the reporting period                                             9                     5.1 
Subtotal                                                                                                                   72                   40.0 
For which final action was taken during the reporting period:                                                                                         
    Dollar value of disallowed costs that were recovered                                                                                        2.4 
    Dollar value of disallowed costs that were written off by management                                                                        3.1 
    Dollar value of disallowed costs that entered appeal status                                                                                      
For which no final action had been taken by the end of the reporting period                                                70                    3.4 

                                                                          

                                                                               Semiannual Report to Congress: April 1– September 30, 2012     69
                                                                Appendix

                                   Final Audit Reports Issued
           
                                                                        # of Nonmonetary         Questioned     Funds Put To      Other Monetary 
                            Report Name 
                                                                        Recommendations           Costs ($)     Better Use ($)      Impact ($) 
                                                       Employment and Training Programs  
Employment and Training ‐ Multiple Programs 
Changes Can Provide ETA Better Information On Participants Co‐
Enrolled In Workforce Investment Act And Wagner‐Peyser Programs; 
Report No. 03‐12‐004‐03‐390; 09/28/12                                            3                         0                 0                 0 
Job Corps Program 
 Education and Training Resources Did Not Ensure Best Value in 
Awarding Subcontracts at the Oneonta Job Corps Center; Report No. 
26‐12‐001‐03‐370; 06/22/12                                                       4                  537,407                  0                 0 
Conflict of Interest Complaint On a Job Corps Center Operator 
Subcontract Award Had Merit; Report No. 26‐12‐004‐03‐370; 09/28/12               3                  385,000                  0                 0 
Job Corps Oversight of Center Performance Needs Improvement; 
Report No. 26‐12‐006‐03‐370; 09/28/12                                            3                         0     155,000,000                   0 
Bureau of Labor Statistics 
BLS Needs to Strengthen Security of Pre‐Release Economic Data in the 
BLS/State Labor Market Information Cooperative Programs; Report No. 
17‐12‐005‐11‐001; 09/28/12                                                       5                        0                0                   0 
Goal Totals (5 Reports)                                                         18                  922,407      155,000,000                   0 
                                                             Worker Benefit Programs 
Unemployment Insurance Service 
ETA Did Not Use Compatible Data Which Overstated the Effectiveness 
of Its Overpayments Detections; Report No. 04‐12‐001‐03‐315; 
09/28/12                                                                           5                       0     142,000,000                   0 
ETA Can Improve Oversight of States' UI Administrative Costs; Report 
No. 04‐12‐002‐03‐315; 09/19/12                                                     1                591,161                  0                 0 
Federal Employees’ Compensation Act 
Controls Over Transportation Cost Reimbursements to FECA Claimants 
Need Strengthening; Report No. 03‐12‐003‐04‐431; 09/28/12                          4                   3,771                 0                 0         
Service Auditors' Report on the Integrated Federal Employees' 
Compensation System and Service Auditors' Report on the Medical 
Billing Process; Report No. 22‐12‐008‐04‐431; 09/17/12                             0                       0                 0                 0         
Employee Benefits Security Administration 
Changes Are Still Needed in the ERISA Audit Process to Increase 
Protections for Employee Benefit Plan Participants ; Report No. 09‐12‐
002‐12‐121; 09/28/12                                                               8                      0                0                   0 
Goal Totals (5 Reports)                                                           18                594,932      142,000,000                   0 
                                                  Worker Safety, Health, and Workplace Rights 
Wage and Hour Division 
Wage and Hour Division Lacked Effective Financial Management of Back 
Wage and Civil Monetary Penalty Receivables; 22‐12‐013‐04‐420; 
09/28/12                                                                           4                       0                 0                 0 
Mine Safety and Health 
MSHA's Accountability Program Faces Challenges, But Makes 
Improvements; Report No. 05‐12‐002‐06‐001; 09/28/12                                4                       0                 0                 0 
MSHA's Oversight Of Mine Operators' Training Plans Was Adequate; 
Report No. 05‐12‐003‐06‐001; 09/28/12                                              0                       0                 0                 0 
Occupational Safety and Health 
OSHA Needs To Improve Oversight Over The Management 
Accountability Program; Report No. 02‐12‐204‐10‐105; 09/27/12                      3                       0                 0                 0 
           


 70       Semiannual Report to Congress: April 1– September 30, 2012
                                                              Appendix

                   Final Audit Reports Issued, continued
OSHA's Site Specific Targeting Program Has Limitations On Targeting 
And Inspecting High‐Risk Worksites; Report No. 02‐12‐202‐10‐105; 
09/28/12                                                                      3                        0                0                      0 
Foreign Labor Certification 
Management of H‐2B Program Needs to be Strengthened to Ensure 
Adequate Protections for U.S. Workers; 06‐12‐001‐03‐321; 09/28/12             4                        0                0                      0 
Office of Labor‐Management Standards 
OLMS Could Do More to Improve the Effectiveness of the Compliance 
Audit Program; Report No. 09‐12‐001‐04‐421; 09/13/12                          3                        0                0                      0 
Goal Totals (7 Reports)                                                      21                        0                0                      0 
                                                          Departmental Management 
Office of the Assistant Secretary for Administration and Management                                                                    
Department's Information Technology Security Program Is Weakened 
by Deficiencies; Report No. 23‐12‐007‐07‐001; 09/27/12                        1                       0                0                       0 
Goal Totals (1 Report)                                                        1                       0                0                       0 
Final Audit Report Totals (18 Reports)                                       58               1,517,339      297,000,000                       0 
 
           
           




                                                                         Semiannual Report to Congress: April 1– September 30, 2012       71
                                                                    Appendix

                                                        Other Reports
                                                                            
                                                                                                         # of Nonmonetary    Questioned 
                                              Report Name 
                                                                                                         Recommendations      Costs ($) 
                                                          Employment and Training Programs 
Employment and Training ‐ Multiple Programs 
Recovery Act: Quality Control Review Single Audit of the New England Farm Workers' Council, Inc. for 
the Year Ended June 30, 2011; Report No. 18‐12‐006‐03‐001; 09/27/12                                             2                          0 
Recovery Act: Quality Control Review Single Audit of the National Council on Aging, Inc. for the Year 
Ended June 30, 2011; Report No. 18‐12‐005‐03‐360; 06/19/12                                                      0                          0 
Recovery Act:  Quality Control Review Single Audit of Cumberland County;  
Report No. 18‐12‐007‐03‐390; 08/29/12                                                                           0                          0 
Employment Training Administrations' Vulnerability Assessment; 
Report No. 22‐12‐021‐03‐001; 09/27/12                                                                           0                          0 
Job Corps Program 
Verification of Job Corps Remediation Effort of Prior‐Year Information Technology Security 
Recommendations; Report No. 23‐12‐012‐03‐370; 09/28/12                                                          0                          0 
Job Corps SPAMIS System Testing; Report No. 23‐12‐023‐03‐370; 09/28/12                                          3                          0 
Bureau of Labor Statistics 
Alert Memorandum: DOL Needs to Immediately Take Corrective Action to Safeguard BLS Information; 
Report No. 23‐12‐006‐07‐001; 06/19/12                                                                           1                          0 
LABSTAT System Testing; Report No. 23‐12‐021‐11‐001; 09/28/12                                                   3                          0 
Goal Totals (8 Reports)                                                                                         9                          0 
                                                               Worker Benefit Programs 
Office of Workers’ Compensation  
Office of Workers' Compensation Program's Vulnerability Assessment;  
                                                                                                                0 
Report No. 22‐12‐020‐04‐001; 09/28/12                                                                                                      0 
Goal Totals (1 Report)                                                                                          0                          0 
                                                Worker Safety, Health, and Workplace Rights 
Mine Safety and Health 
Interim Report: MSHA Needs to Strengthen Planning and Procurement for Metal and Nonmetal 
Rescue Contests; Report No. 05‐12‐004‐06‐001; 09/28/12                                                          5                          0 
Verification of Mine Safety and Health Administration's Remediation Efforts of Prior‐Year 
Information Technology Security Recommendations; Report No. 23‐12‐013‐06‐001; 09/28/12                          0                          0 
Occupational Safety and Health 
Verification of Occupational Safety and Health Administration Remediation Efforts of Prior‐Year 
Information Technology Security Recommendations; Report No. 23‐12‐017‐10‐001; 09/28/12                          0                          0 
Occupational Safety and Health Information System Testing;  
Report No. 23‐12‐022‐10‐001; 09/28/12                                                                           4                          0 
Goal Totals (4 Reports)                                                                                         9                          0 
                                                            Departmental Management 
Office of the Secretary 
Federal Information Security Management Act OALJ General Support System Testing;  
Report No. 23‐12‐011‐01‐060; 09/27/12                                                                           4                          0 
Office of the Assistant Secretary for Administration and Management 
OIG Review of Complaint Filed by Waterfront Technologies, Inc.;   
Report No. 17‐12‐003‐07‐711; 04/24/12                                                                           0                          0 
Vulnerability Assessment for Division of Information Technology Management System;  
Report No. 22‐12‐022‐07‐001; 09/28/12                                                                           0                          0 
Alert Memorandum: DOL Needs to Take Immediate Action to Correct Security Weaknesses in the PIV‐
II System;  Report No. 23‐12‐009‐07‐001; 09/07/12                                                               2                          0 
Alert Memorandum: OALJ Is Using Unauthorized Apple iPads that are not FIPS 140‐2 Compliant;  
Report No. 23‐12‐010‐07‐001; 09/26/12                                                                           2                          0 
           

  72          Semiannual Report to Congress: April 1– September 30, 2012
                                                               Appendix

                                   Other Reports, continued
Personal Identity Verification II (PIV‐11) System Testing; Report No. 23‐12‐020‐07‐01; 09/28/12                 4                              0 
Department‐wide Security Issues; Report No. 23‐12‐024‐07‐001; 09/28/12                                          3                              0 
Office of the Chief Financial Officer 
Summary of Findings Related to Selected Systems Tested During the FY 2011 Consolidated Financial 
Statement Audit and SAS 70 Examination; Report No. 22‐12‐007‐07‐001; 08/23/12                                   0                              0 
Vulnerability Assessment for Office of Chief Financial Officers' PeoplePower;  
Report No. 22‐12‐019‐13‐001; 9/27/12                                                                            0                              0 
Verification of Office of Chief Financial Officer Remediation Efforts of Prior‐Year Information 
Technology Security Recommendations; Report No. 23‐12‐015‐13‐001; 09/28/12                                       0                             0 
Goal Totals (10 Reports)                                                                                        15                             0 
Other Report Totals (23 Reports)                                                                                33                             0 

           
           
           




                                                                             Semiannual Report to Congress: April 1– September 30, 2012   73
                                                               Appendix

                           Single Audit Reports Processed
                                                                          
                                                                             # of Nonmonetary    Questioned         Funds Put To  
                         Program/Report Name 
                                                                             Recommendations      Costs ($)         Better Use ($) 
                                                        Employment and Training Programs 
Veterans Employment and Training Services 
Black Veterans for Social Justice, Inc.;  
Report No. 24‐12‐514‐02‐201; 04/06/12                                                 1                        0                      0 
Indian and Native American Programs  
Denver Indian Center, Inc.; Report No. 24‐12‐605‐03‐355; 07/09/12                     1                        0                      0 
Mescalero Apache Tribe; Report No 24‐12‐614‐03‐03‐355; 08/20/12                       1                        0                      0 
Older Workers Program 
National Asian Pacific Center on Aging; Report No. 24‐12‐559‐03‐360; 
04/27/12                                                                              1                 276,601                       0 
AARP Foundation; Report No. 24‐12‐603‐03‐360; 07/09/12                                0                  73,258                       0 
Ser‐Jobs for Progress National; Report No. 24‐12‐604‐03‐360; 07/02/12                2                  163,143                       0 
State of Hawaii Department of Accounting and General Services;  
Report No. 24‐12‐617‐03‐360; 08/24/12                                               10                    1,242                       0 
Office of Job Corps 
St. James Parish; Report No. 24‐12‐612‐03‐370; 07/31/12                              1                    7,225                       0 
Workforce Investment Act 
State of Nebraska; Report No. 24‐12‐546‐03‐390; 04/06/12                             7                         0                      0 
CNY, Inc.; Report No. 24‐12‐551‐03‐390; 04/06/12                                     1                         0                      0 
Commonwealth of Massachusetts; Report No. 24‐12‐552‐03‐390; 04/18/12                 2                         0                      0 
Community College of Philadelphia;  
Report No. 24‐12‐553‐03‐390; 04/23/12                                                4                        0                       0 
State of Tennessee, Report No. 24‐12‐554‐03‐390; 04/24/12                            1                  283,623                       0 
State of Missouri; Report No. 24‐12‐556‐03‐390; 06/25/12                             1                  189,423                       0 
Job Growers, Inc., FKA Enterprise for Employment and Education;  
Report No. 24‐12‐557‐03‐390; 04/30/12                                                4                        0                       0 
Commonwealth of Kentucky; Report No. 24‐12‐558‐03‐390; 04/27/12                      1                        0                       0 
State of North Carolina; Report No. 24‐12‐560‐03‐390; 05/01/12                      15                  736,304                       0 
State of Indiana; Report No. 24‐12‐561‐03‐390; 05/02/12                              3                        0                       0 
State of Illinois, Governors University; 
Report No. 24‐12‐563‐03‐390; 05/14/12                                                1                        0                       0 
State of Ohio; Report No. 24‐12‐564‐03‐390; 05/10/12                                 7                6,281,047                       0 
Commonwealth of Pennsylvania; Report No. 24‐12‐567‐03‐390; 05/10/12                  1                  155,590                       0 
The City of New York; 24‐12‐572‐03‐390; 05/23/12                                     1                        0                       0 
State of Oklahoma Department of Commerce;  
Report No. 24‐12‐576‐03‐390; 05/24/12                                                2                        0                       0 
State of Vermont; Report No. 24‐12‐578‐03‐390; 05/24/12                              2                        0                       0 
State of Alaska; Report No. 24‐12‐581‐03‐390; 06/25/12                               3                        0                       0 
City of Richmond; Report No. 24‐12‐583‐03‐390; 06/01/12                              3                    1,309                       0 
School District of Philadelphia; Report No. 24‐12‐584‐03‐390; 06/01/12               1                        0                       0 
Covenant House New Jersey; Report No.  24‐12‐586‐03‐390; 06/18/12                    1                        0                       0 
Providence Health Foundation; Report No. 24‐12‐588‐03‐390; 07/09/12                  5                        0                       0 
National Council of La Raza; Report No. 24‐12‐589‐03‐390; 06/18/12                   1                        0                       0 
Graham County Community College District;  
Report No. 24‐12‐595‐03‐390; 06/25/12                                                1                         0                      0 
                                                                                                                                        
           

74       Semiannual Report to Congress: April 1– September 30, 2012
                                                               Appendix

             Single Audit Reports Processed, continued
                                                                                                                                                
Young Adult Development In Action, Inc., DBA Youthbuild Louisville;  
Report No. 24‐12‐596‐03‐390; 07/03/12                                                1                                 0                      0 
City of Lathrop; Report No. 24‐12‐597‐03‐390; 06/25/12                               1                                 0                      0 
State of Hawaii; Report No. 24‐12‐599‐03‐390; 07/03/12                               6                            33,000                      0 
South Carolina Department of Employment Workforce;  
Report No. 24‐12‐601‐03‐390; 07/18/12                                                1                                 0                      0 
Co‐Opportunity, Inc.; Report No. 24‐12‐607‐03‐390; 07/09/12                          1                                 0                      0 
State of Kansas; Report No. 24‐12‐608‐03‐390; 07/02/12                               2                                 0                      0 
Wyandotte Nation; Report No. 24‐12‐609‐03‐390; 06/24/12                              1                                 0                      0 
State of Michigan, Department of Licensing and Regulatory Affairs, 
Unemployment Insurance Agency, Unemployment Compensation Funds; 
Report No. 24‐12‐611‐03‐390; 07/30/12                                                3                             1,969                      0 
National Association of Regional Councils; Report No. 24‐12‐616‐03‐390; 
08/20/12                                                                             1                                 0                      0 
Inter‐Tribal Council, Inc.; Report No. 24‐12‐618‐03‐390; 09/11/12                    1                                 0                      0 
National Academy of Sciences; Report No. 24‐12‐619‐03‐390; 08/24/12                  1                                 0                      0 
City of Minneapolis; Report No. 24‐12‐622‐03‐390; 09/12/12                           1                                 0                      0 
Bureau of Labor Statistics 
Metro United Methodist Urban Ministry; Report No. 24‐12‐598‐11‐001                   1                                0                       0 
Goal Totals (44 Reports)                                                            106                       8,203,734                       0 
                                                            Worker Benefit Programs 
Unemployment Insurance Service 
State of Colorado; Report No. 24‐12‐550‐03‐315; 04/06/12                             5                                 0                      0 
State Employment Security Agency 
State of Arizona, Report No. 24‐12‐555‐03‐325; 04/25/12                              4                         7,956,927                      0 
State of Florida; Report No. 24‐12‐562‐03‐325; 05/10/12                              6                                 0                      0 
State of Georgia; Report No. 24‐12‐565‐03‐325; 05/10/12                              15                            2,279                      0 
State of Oregon; Report No. 24‐12‐566‐03‐325; 05/10/12                               3                         6,306,594                      0 
State of Wisconsin; Report No. 24‐12‐568‐03‐325; 05/10/12                            3                             6,461                      0 
State of New Hampshire; Report No. 24‐12‐569‐03‐325; 05/10/12                        10                                0                      0 
State of Rhode Island and Providence; Report No. 24‐12‐570‐03‐325; 
08/21/12                                                                             8                                0                       0 
State of Oklahoma, Report No. 24‐12‐571‐03‐325; 05/14/12                             3                                0                       0 
State of New Jersey; Report No. 24‐12‐573‐03‐325; 05/14/12                           7                           20,425                       0 
State of Washington; Report No. 24‐12‐574‐03‐325; 05/23/12                           1                                0                       0 
Workforce Connection; Report No. 24‐12‐575‐03‐325; 06/18/12                          8                                0                       0 
State of West Virginia; Report No. 24‐12‐577‐03‐325; 05/24/12                        1                                0                       0 
State of Maine; Report No. 24‐12‐579‐03‐325; 06/01/12                                8                            6,352                       0 
State of Iowa; Report No. 24‐12‐580‐03‐325; 06/01/12                                 2                                0                       0 
State of Connecticut; Report No. 24‐12‐585‐03‐325; 06/25/12                          9                                0                       0 
State of Louisiana; Report No. 24‐12‐587‐03‐325; 06/20/12                            3                          249,142                       0 
State of California; Report No. 24‐12‐590‐03‐325; 06/25/12                           2                                0                       0 
State of Delaware; Report No. 24‐12‐593‐03‐325; 06/20/12                             6                                0                       0 
State of Minnesota; Report No. 24‐12‐594‐03‐325; 06/20/12                            2                           13,056                       0 
State of South Dakota; Report No. 24‐12‐610‐03‐325; 07/31/12                         3                                0                       0 
Government of the District of Columbia;  
Report No. 24‐12‐613‐03‐325; 08/20/12                                                3                           13,664                       0 
Goal Totals (22 Reports)                                                            112                      14,574,900                       0 
Single Audit Report Totals (66 Reports)                                             218                      22,778,634                       0 

                                                                            Semiannual Report to Congress: April 1– September 30, 2012   75
                                                                 Appendix

       Unresolved Audit Reports over Six Months Old
                                                                         
                                                                                                   # of Nonmonetary        Questioned Costs 
  Agency                                             Report Name 
                                                                                                   Recommendations                ($) 
                                              Nonmonetary Recommendations and Questioned Costs 
                                     OIG Conducting Follow Up Work During FY 2012 Financial Statement Audit 
                 Consolidated Financial Statement Audit of ETA’s E‐Grants System, Unemployment 
ETA 
                 Insurance Data; Report No. 22‐12‐011‐03‐001; 02/22/12                                         3                          0 
                 Consolidated Financial Statement Audit of OWCP’s Division of Information 
                 Technology Management Services General Support System Automated Support 
OWCP             Package, Energy Case Management System, Longshore Disbursement System and 
                 Integrated Federal Employees’ Compensation System;  
                 Report No. 22‐12‐010‐04‐001; 02/22/12                                                         2                          0 
                 Consolidated Financial Statement Audit of OASAM’s E‐Procurement System and 
OASAM            Employee Computer Network/Departmental Computer Network;  
                 Report No. 22‐12‐012‐07‐001; 02/22/12                                                         3                          0 
                 Consolidated Financial Statement Audit of OCFO’s New Core Financial 
OCFO 
                 Management System and PeoplePower; Report No. 22‐12‐009‐13‐001; 02/22/12                      2                          0 
                 The Department of Labor’s Compliance with the Improper Payment Elimination 
OCFO             and Recovery Act of 2010 in the Fiscal Year 2010 Agency Financial Report;  
                 Report No. 22‐12‐016‐13‐001; 03/15/12                                                         1                          0 
                      Final Management Decision/Final Determination Issued Did Not Resolve; OIG Negotiating with Agency 
                 Job Corps Needs to Improve Reliability of Performance Metrics and Results;  
ETA 
                 Report No. 26‐11‐004‐03‐370; 09/30/11                                                          1                         0 
ETA              Additional Information Needed to Measure the Effectiveness and Return on 
                 Investment of Training Services Funded Under the WIA Adult and Dislocated 
                 Worker Programs; Report No. 03‐11‐003‐03‐390; 09/30/11                                         1                         0 
ETA              Program Design Issues Hampered ETA’s Ability to Ensure the H‐2B Visa Program 
                 Provided Adequate Protections for U.S. Forestry Workers in Oregon;  
                 Report No. 17‐12‐001‐03‐321; 10/17/11                                                          3                         0 
OSHA             OSHA Needs to Evaluate and Use of Hundreds of Millions of Dollars in Penalty 
                 Reductions as Incentives for Employers to Improve Workplace Safety and Health; 
                 Report No. 02‐10‐201‐10‐105; 09/30/10                                                          1                         0 
OWCP             Audit of Federal Employees' Compensation Act, Durable Medical Equipment 
                 Payments; Report No. 03‐12‐002‐04‐431; 03/26/12                                                2                    68,546 
                                  Final Determination Not Issued by Grant/Contracting Officer by Close of Period 
                 Performance Audit of Applied Technology System, Inc., Job Corps Center;  
ETA 
                 Report No. 26‐08‐005‐01‐370; 09/30/08                                                          2                   678,643 
                 Performance Audit of Management and Training Corporation;  
ETA 
                 Report No. 26‐09‐001‐01‐370; 03/31/09                                                          1                    63,943 
                 Performance Audit of Education and Training Resources;  
ETA 
                 Report No. 26‐10‐003‐01‐370; 03/18/10                                                          1                    11,228 
                 Applied Technology Systems, Inc. Overcharged Job Corps for Indirect Costs; Report 
ETA 
                 No. 26‐10‐006‐01‐370; 09/24/10                                                                 1                 1,800,000 
                 Adams and Associate Did Not Ensure Best Value In Awarding Subcontracts at the 
ETA 
                 Red Rock Job Corps Center; Report No. 26‐11‐002‐03‐370; 09/30/11                               1                   334,675 
                 Kansas Controls Over Jobs for Veteran State Grant Need to Be Strengthened; 
VETS 
                 Report No. 04‐11‐002‐02‐201; 03/31/11                                                          1                   167,065 
VETS             State of Louisiana; Report No. 24‐11‐543‐02‐201; 05/06/11                                      1                   147,057 
ETA              Michigan Veterans Foundation; Report No. 24‐11‐602‐03‐390; 09/15/11                            1                         0 
VETS             Career and Recovery Resources, Inc.; Report No. 24‐12‐534‐02‐201; 01/30/12                     2                         0 
                 Vietnam Veterans of San Diego d/b/a Veterans Village of San Diego;  
VETS 
                 Report No. 24‐12‐545‐02‐201; 03/19/12                                                          1                         0 
                 Goodwill Industries of Greater Rapids, Inc.; Report No. 24‐12‐548‐02‐201; 
VETS 
                 03/19/12                                                                                       2                    40,000 
        

76         Semiannual Report to Congress: April 1– September 30, 2012
                                                            Appendix

                                       Investigative Statistics
          
                                                                                                  Division Totals                Total
Cases Opened:                                                                                                                     253
Program Fraud                                                                                           215 
Labor Racketeering                                                                                       38 
Cases Closed:                                                                                                                    223
Program Fraud                                                                                           166 
Labor Racketeering                                                                                       57 
Cases Referred for Prosecution:                                                                                                  261
Program Fraud                                                                                           220 
Labor Racketeering                                                                                       41 
Cases Referred for Administrative/Civil Action:                                                                                  101
Program Fraud                                                                                            89 
Labor Racketeering                                                                                       12 
Indictments:                                                                                                                     357
Program Fraud                                                                                           280 
Labor Racketeering                                                                                       77 
Convictions:                                                                                                                     230
Program Fraud                                                                                           172 
Labor Racketeering                                                                                       58 
Debarments:                                                                                                                       48
Program Fraud                                                                                            35 
Labor Racketeering                                                                                       13 
Recoveries, Cost‐Efficiencies, Restitutions, Fines/Penalties, Forfeitures, and Civil Monetary                                  $141,586,735
Actions: 
Program Fraud                                                                                         $42,491,263 
Labor Racketeering                                                                                    $98,969,772 
           
Recoveries: The dollar amount/value of an agency’s action to recover or to reprogram funds or to make other                       $7,060,939
adjustments in response to OIG investigations 
Cost‐Efficiencies: The one‐time or per annum dollar amount/value of management’s commitment, in response                          $7,689,694
to OIG investigations, to utilize the government’s resources more efficiently 
Resolutions/Forfeitures: The dollar amount/value of restitutions and forfeitures resulting from OIG criminal                    $67,678,429
investigations 
Fines/Penalties: The dollar amount/value of fines, assessments, seizures, investigative/court costs, and other                  $42,629,339
penalties resulting from OIG criminal investigations 
Civil Monetary Actions: The dollar amount/value of forfeitures, settlements, damages, judgments, court costs,                   $16,528,334
or other penalties resulting from OIG criminal investigations 
Total:                                                                                                                         $141,586,735
                                                                    
          




                                                                         Semiannual Report to Congress: April 1– September 30, 2012      77
                                                                                                                                  1 
                                                                
                                                             Appendix

                                      Peer Review Reporting
    The following meets the requirement under Section 989C of the Dodd-Frank Wall Street Reform and Consumer
  Protection Act (P.L. 111-203) that the Inspectors General include their peer review results as an appendix to each
  semiannual report. Federal audit functions can receive a rating of “pass,” “pass with deficiencies,” or “fail.” Federal
  investigation functions can receive a rating of “compliant” or “noncompliant.”



Peer Review of DOL-OIG Audit Function                               Peer Review of DOL-OIG Investigative
                                                                    Function
The Department of Transportation (DOT) OIG conducted
a peer review of the system of quality control for DOL-             In FY 2010, the Treasury Inspector General for Tax
OIG’s audit function for the year ending on September               Administration initiated a peer review of the system of
30, 2009. This peer review, which was issued on February            internal safeguards and management procedures for
3, 2010, resulted in an opinion that the system of quality          DOL-OIG’s investigative function for the year ending on
control was suitably designed and provided a reasonable             September 30, 2010. This peer review found DOL-OIG to
assurance of DOL-OIG conforming to professional                     be compliant and made no recommendations.
standards in the conduct of audits. The peer review gave
DOL-OIG a pass rating and made no recommendations.




78     Semiannual Report to Congress: April 1– September 30, 2012
                                                     Appendix

                               Whistleblower Reporting
    Under the American Recovery and Reinvestment Act of 2009 (ARRA) (P.L. 111-5), an employee of any non-Federal
  employer receiving covered ARRA funds may not be discharged, demoted, or otherwise discriminated against as a
  reprisal for disclosing information that the employee reasonably believes is evidence of (1) gross mismanagement
  of an agency contract or grant relating to covered funds; (2) a gross waste of covered funds; (3) a substantial and
  specific danger to public health or safety related to the implementation or use of covered funds; (4) an abuse of
  authority related to the implementation or use of covered funds; or (5) a violation of law, rule, or regulation related
  to an agency contract or grant awarded or issued relating to covered funds.

    The following meets the requirements under this Act that the Inspectors General include in each semiannual report
  a list of those investigations for which the Inspector General received an extension beyond the applicable 180-day
  period to conduct an investigation and submit a report (Section 1553(b)(2)(B)(iii)), and a list of those investigations
  the Inspector General decided not to conduct or continue (Section 1553(b)(3)(C)).



The OIG decided not to conduct one Recovery Act whistleblower investigation during this semiannual reporting period:

An individual submitted a complaint to the OIG, through his counsel, claiming that he was terminated by a contractor
receiving Federal stimulus funds through ARRA to help expand networking grids into rural areas, after the individual raised
concerns about the contractor’s compliance with the Davis-Bacon Act. The OIG determined that the Recovery Act funds
in question were appropriated to the Department of Commerce, and the OIG advised the individual’s counsel to contact
the Department of Commerce – OIG with respect to his retaliation complaint.




                                                                  Semiannual Report to Congress: April 1– September 30, 2012   79
                                                                        Appendix

                                                             OIG Hotline
   The OIG Hotline provides a communication link between the OIG and persons who want to report alleged violations
 of laws, rules, and regulations; mismanagement; waste of funds; abuse of authority; or danger to public health and
 safety. During the reporting period April 1, 2012, through September 30, 2012, the OIG Hotline received a total of
 988 contacts. Of these, 505 were referred for further review and/or action.

      

     Complaints Received (by Method Reported):                                                                                                     Totals
     Telephone                                                                                                                                      443
     E‐Mail/Internet                                                                                                                                411
     Mail                                                                                                                                           112
     Fax                                                                                                                                            21
     Walk‐In                                                                                                                                         1
     Total                                                                                                                                          988
                                                                                                                           
     Complaints Received (by Source):                                                                                                              Totals
     Complaints from Individuals or Nongovernment Organizations                                                                                     928
     Complaints/Inquiries from Congress                                                                                                              1
     Referrals from GAO                                                                                                                             19
     Complaints from Other DOL Agencies                                                                                                             19
     Complaints from Other (Non‐DOL) Government Agencies                                                                                            21
     Total                                                                                                                                          988
                                                                                                                           
     Disposition of Complaints:                                                                                                                   Totals
     Referred to OIG Components for Further Review and/or Action                                                                                    53
     Referred to DOL Program Management for Further Review and/or Action                                                                           247
     Referred to Non‐DOL Agencies/Organizations                                                                                                    205
     No Referral Required/Informational Contact                                                                                                    518
     Total                                                                                                                                        1,023*
      
      
     *During this reporting period, the Hotline office referred several individual complaints to multiple offices or entities for review (e.g., to OIG 
     components, or to an OIG component and DOL program management and/or non‐DOL agency). 
      
      
      
      




80       Semiannual Report to Congress: April 1– September 30, 2012
Office of Inspector General, U.S. Department of Labor
             200 Constitution Avenue, NW
                     Room S-5506
                Washington, DC 20210


               http://www.oig.dol.gov/
                  Office of Inspector General
               United States Department of Labor


  Report Fraud, Waste, and Abuse

             Call the Hotline
     202.693.6999      800.347.3756
             Email: hotline@oig.dol.gov
               Fax: 202.693.7020




  The OIG Hotline is open to the public and to Federal employees
 24 hours a day, 7 days a week to receive allegations of fraud, waste,
and abuse concerning Department of Labor programs and operations.

                             OIG Hotline
                       U.S. Department of Labor
                      Office of Inspector General
                     200 Constitution Avenue, NW
                             Room S-5506
                        Washington, DC 20210
